<html>
<title> - REVIEW OF DEPARTMENT OF JUSTICE FIREARM PROSECUTIONS</title>
<body><pre>[Senate Hearing 106-201]
[From the U.S. Government Printing Office]



 
59-738 CC

1999

                                                        S. Hrg. 106-201

          REVIEW OF DEPARTMENT OF JUSTICE FIREARM PROSECUTIONS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CRIMINAL JUSTICE OVERSIGHT

                                and the

                     SUBCOMMITTEE ON YOUTH VIOLENCE

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

 REVIEWING THE DEPARTMENT OF JUSTICE FIREARM PROSECUTION, FOCUSING ON 
 VIOLENT CRIME PROSECUTION, FIREARM LEGISLATION, PROJECT ACHILLES, AND 
                          PROJECT TRIGGERLOCK

                               __________

                             MARCH 22, 1999

                               __________

                           Serial No. J-106-7

                               __________

         Printed for the use of the Committee on the Judiciary

?

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                  Bruce Cohen, Minority Chief Counsel

                                 ______

               Subcommittee on Criminal Justice Oversight

                STROM THURMOND, South Carolina, Chairman

MIKE DeWINE, Ohio                    CHARLES E. SCHUMER, New York
JOHN ASHCROFT, Missouri              JOSEPH R. BIDEN, Jr., Delaware
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont

                     Garry Malphrus, Chief Counsel

                    Glen Shor, Legislative Assistant

                                 ______

                     Subcommittee on Youth Violence

                    JEFF SESSIONS, Alabama, Chairman

BOB SMITH, New Hampshire             JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              HERBERT KOHL, Wisconsin

                       Kristi Lee, Chief Counsel

                 Sheryl Walter, Minority Chief Counsel

                                  (ii)
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Thurmond, Hon. Strom, U.S. Senator from the State of South 
  Carolina.......................................................     1
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     2
Specter, Hon. Arlen, U.S. Senator from the State of Pennsylvania.     3

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Thomas W. Corbett, Jr., chairman, 
  Pennsylvania Commission on Crime and Delinquency, Pittsburgh, 
  PA, and former U.S. Attorney, Western District of Pennsylvania; 
  and Andrew L. Vita, assistant director of field operations, 
  Washington Field Division, Bureau of Alcohol, Tobacco and 
  Firearms, Washington, DC.......................................     8
Panel consisting of Helen F. Fahey, U.S. attorney, Eastern 
  District of Virginia, Alexandria, VA; Jerry Oliver, chief of 
  police, City of Richmond, VA; John F. Timoney, police 
  commissioner, City of Philadelphia, PA; and Donald K. Stern, 
  U.S. attorney, District of Massachusetts, Boston, MA...........    22

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Corbett, Thomas W., Jr.:
    Testimony....................................................     8
    Prepared statement...........................................    10
Fahey, Helen F.:
    Testimony....................................................    22
    Prepared statement of the Department of Justice including 
      prepared statements of Helen F. Fahey and Donald K. Stern..    25
Oliver, Jerry A.:
    Testimony....................................................    50
    Prepared statement...........................................    52
Sessions Hon. Jeff: Submitted prepared statement of Henry L. 
  Neal, retired special agent, ATF...............................    68
Stern, Donald K.: Testimony......................................    59
Timoney, John F.:
    Testimony....................................................    54
    Prepared statement...........................................    57
Vita, Andrew L.:
    Testimony....................................................    11
    Prepared statement...........................................    13

                                Appendix
                  Additional Submission for the Record

Article by David S. Cloud, staff reporter of ``The Wall Street 
  Journal,'' dated Aug. 31, 1998.................................    71

 
          REVIEW OF DEPARTMENT OF JUSTICE FIREARM PROSECUTIONS

                              ----------                              


                         MONDAY, MARCH 22, 1999

                           U.S. Senate,    
    Subcommittee on Criminal Justice Oversight,    
                    and Subcommittee on Youth Violence,    
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:24 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Strom 
Thurmond (chairman of the Subcommittee on Criminal Justice 
Oversight) presiding.
    Also present: Senators Sessions, and Specter (ex officio).

 OPENING STATEMENT OF HON. STROM THURMOND, A U.S. SENATOR FROM 
                  THE STATE OF SOUTH CAROLINA

    Senator Thurmond. The committee will come to order.
    I am pleased to hold this joint hearing of the Subcommittee 
on Criminal Justice Oversight and the Subcommittee on Youth 
Violence. An important responsibility of the Criminal Justice 
Oversight Subcommittee under my leadership in this Congress 
will be to take a hard look at our Federal law enforcement, 
prosecution, and incarceration activities.
    In this hearing today, we will evaluate Justice Department 
prosecutions under Federal firearms laws and the success of 
Federal-State law enforcement partnerships in this regard. I 
wish to commend Senator Sessions, a distinguished former 
Federal prosecutor and Alabama Attorney General, for his 
personal commitment to this very important issue for the past 2 
years.
    Violent, repeat offenders are a serious threat to society. 
An important way we can fight crime is to get guns out of the 
hands of these dangerous criminals. We have long-standing 
Federal laws that punish felons and drug offenders for having 
or using firearms. These laws are on the books for a reason--to 
be enforced. I am deeply concerned about the apparent failure 
of the Justice Department to vigorously enforce these firearms 
laws during much of the Clinton administration.
    About a decade ago, the Bush administration implemented a 
Federal law enforcement initiative called Operation 
Triggerlock. It targeted defendants who used a firearm in the 
commission of a felony with aggressive Federal firearm 
prosecutions, and it was very successful.
    Unfortunately, between 1992 and 1997, Triggerlock gun 
prosecutions dropped nearly by half, from 7,048 cases filed in 
the last year of the Bush administration to 3,765 cases filed 
in the fifth year of the Clinton administration. Finally, in 
1997, the U.S. attorney's office in Richmond, VA, launched a 
similar initiative called Project Exile. The program has been a 
huge success. When the project was implemented, Richmond's 
homicide rate was second in the Nation for a city of its size. 
One year later, Richmond's homicide rate dropped by over 40 
percent.
    Project Exile is not about creating new Federal crimes. 
Instead, it is about enforcing the laws we have. It makes up 
for deficiencies in State law by making justice swift and 
certain. Under Project Exile, criminals are prosecuted six 
times faster and serve three to four times longer sentences 
than they would in the State system for the same offense. Also, 
bail is much less available in the Federal system, and 
prosecutors refuse to plea bargain below the mandatory minimum 
sentence. All of this is achieved with relatively little 
additional expenditures.
    Project Exile is a cooperative effort between Federal law 
enforcement on one end and State and local law enforcement on 
the other. They work together to fight crime. It is vital that 
this approach be expanded to many other cities. This type of 
initiative is desperately needed by many other cities plagued 
by gun-related criminal activity.
    I was pleased that the President discussed the success of 
Project Exile during his weekly radio address on Saturday. It 
is vital that the Clinton administration focus its crime-
control efforts and resources on prosecuting dangerous 
criminals with firearms.
    Also, it is my hope that cities and States across America 
will address the deficiencies of their laws that have made 
initiatives such as this necessary. States should enact truth-
in-sentencing laws, tougher mandatory minimum sentences, and 
bail and parole reform. They should also hire sufficient 
prosecutors and judges to dispose of criminal cases quickly and 
effectively.
    As a Nation, we must be diligent in enforcing our firearms 
laws. We need to expand successful programs like Project Exile. 
After all, restricting the rights of law-abiding citizens to 
bear arms is not the solution to violent crime. The solution is 
to separate dangerous criminals from the deadly tools of their 
trade.
    I look forward to the testimony of our distinguished 
witnesses.
    Senator Sessions and I are co-chairing this hearing today, 
and I will now turn the Chair over to him. Senator Sessions has 
worked tirelessly to encourage the Clinton administration to 
address the drop in gun prosecutions. We appreciate his hard 
work and dedication to this important matter.
    Senator Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. [Presiding.] Thank you very much, Mr. 
Chairman. That was indeed an important statement you made, and 
I believe it goes to the heart of the most effective thing we 
can do to fight violent crime.
    I was, in fact, a U.S. attorney--and we will have one 
testifying today--when you chaired this committee, and I know 
Mr. Corbett was. And during that time, you passed one of the 
most significant laws, I guess, in the history of American 
jurisprudence, the Sentencing Guidelines law--Senator Specter I 
know participated in that--and mandated certain sentences. One 
of the sentencing mandates was that for criminals who carry a 
firearm during a crime, they would be mandatorily sentenced to 
5 years in Federal prison without parole, and they were passed 
so that they would be used. And we set about to use those laws 
and, I think, made some real progress. We will talk about that 
more as we go along.
    But we do want to discuss today the decline in prosecutions 
that was most notable to me when I came to the Senate just over 
2 years ago. This chart shows the Federal prosecution decline 
from 7,048 cases in 1992--and that was, I guess, the last year 
I was U.S. attorney--down to 3,807 in 1998, a 46 percent 
decline. And as I have ask Attorney General Janet Reno and 
Deputy Attorney General Eric Holder about those numbers, I have 
pointed out each time that this administration has stated 
repeatedly that firearms and violent crime are a priority. How 
is it that we have this decline?
    And I have raised with them the program that was begun, 
under President Bush's Presidency, Project Triggerlock, that 
focused on that. It was a team effort between local police, 
local prosecutors, and Federal prosecutors and Federal 
investigative agents, ATF primarily. It worked effectively, and 
we increased significantly the convictions of serious violent 
criminals, and the word does get out on the street. In fact, 
people stopped carrying guns that otherwise would have carried 
guns. As a result of that, in my opinion, people are alive 
today that otherwise would not be alive today.
    When you see the tremendous success of Project Exile, which 
is essentially the same project as Project Triggerlock, except 
it has an advertising component, which I like and think is very 
good, that project has driven down homicides, it is said, in 
Richmond by 40 percent.
    Now, I am telling you, that is a serious event to say a 
single program that costs not much money, that really depends 
on leadership and commitment, can reduce homicides by nearly 50 
percent. It is a remarkable achievement. We want to highlight 
that today and discuss it in more detail. I do think it is good 
that the President has become focused, apparently, on it and 
indicates he is directing his Attorney General and the 
Secretary of Treasury to get back in the game on this issue and 
replicate Project Exile-type initiatives throughout the 
country.
    I really feel strongly about it. I felt like it was one of 
the most significant things that I was able to participate in 
in my 12 years as a Federal prosecutor. It really hurt me to 
see it go into a state of decline, and I can't tell you how 
pleased I am to see that we may be on the eve of having it 
become revitalized again.
    I am pleased to have a former prosecutor from Philadelphia, 
Senator Specter, who serves on our committee here today. 
Senator Specter is a thorough professional in this area, and I 
know he has some comments he would like to make at this time.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you very much, Senator Sessions, Mr. 
Chairman.
    I congratulate Senator Thurmond and Senator Sessions on 
convening this hearing, and I begin by welcoming two 
Pennsylvanians: the chairman of the Pennsylvania Commission on 
Crime and Delinquency, Tom Corbett, a gentleman with a 
distinguished career, serving as a former Attorney General of 
Pennsylvania, and former U.S. attorney for the Western District 
of Pennsylvania. We also have the distinguished police 
commissioner from Philadelphia, John Timoney, who will describe 
the operations of the special project in Philadelphia.
    Today's hearing is very, very important. One under the 
caption of review of Department of Justice firearms 
prosecutions. The Federal Government has become an active 
partner in this area since passage of the armed career criminal 
bill in 1984, which provided for a mandatory sentence up to 
life in jail for a career criminal, someone with three or more 
prior serious felony convictions found in possession of a 
firearm.
    The program was supplemented by Triggerlock, which began in 
the Eastern District of Pennsylvania, Philadelphia Federal 
courts, in 1988, and now has moved to the next line of Project 
Exile, which has reinvigorated the Federal presence with the 
program in Richmond. We have people here today from Richmond, 
and I commend those who have initiated the program there with 
the excellent results cited by Senator Sessions, and we have 
the U.S. attorney from Boston here today to talk about the 
program there.
    In last year's appropriations bill, we added $1.5 million 
for Philadelphia and an add-on of $800,000 for Camden to work 
coordinately across the Delaware River. And the results have 
been very good, as the police commissioner of Philadelphia will 
testify.
    You have about 1,100 to 1,200 of the Philadelphia County 
gun arrests eligible. About 200 of those will be tried, and I 
can tell you from experience--a good bit of it was a very 
bitter experience--how much better it is to try in the Federal 
courts. If you try in the Federal courts, you have the 
individual judge calendar. The case goes to the judge and stays 
there, unlike, say, the Philadelphia County courts where it 
moves to another judge on the next listing, which encourages 
judge-shopping, waiting for a lenient judge.
    Then you have the availability of detention awaiting trial 
where the facts are sufficiently serious on the threat of 
repetitive offense under some very appropriately strict 
constitutional standards. And then you have the sentencing. So 
trying in the Federal courts is Philadelphia is night and day. 
This is a program which ought to be expanded.
    Attorney General Reno was in this room a week ago Friday 
and testified about the good results in Richmond and Boston, 
noted what we were doing in Philadelphia, and was then asked by 
me why only $5 million of an enormous Federal DOJ, Department 
of Justice, budget is allocated to this program. And the answer 
in my view was insufficient.
    Senator Sessions and I and others have been talking about 
having an item on the budget resolution to put more money into 
this program. Perhaps it will be a little easier after 
President Clinton's Saturday speech on this subject. This is a 
high-yield program. Our Federal courts have the capability of 
trying these cases. These are priority cases.
    The Federal backlogs--and they are not easy, but if you 
take the Eastern District of Pennsylvania, for example, the 
civil backlog is in good shape; the criminal docket is in good 
shape; and these cases can be given priority attention. We are 
not federalizing any offenses here. Gun cases have always been 
Federal jurisdiction. They move in interstate commerce, and 
they are a classical case for Federal jurisdiction.
    So we really need to emphasize the success of these 
programs, which I know this hearing will do, and we need to 
expand them.
    I would like to take just a moment or two on a personal 
note. When Senator Thurmond approached the door and his 
presence was noted, I made a comment to some of the staff about 
a very famous incident that occurred at that door with Senator 
Thurmond many years ago. And I read about it in a history book. 
Strom is in a lot of history books. Strom is a legend at the 
table here today, and I confirmed the story with Strom.
    But it so happened that when the Democrats were in control 
and trying to get certain measures through the Judiciary 
Committee. They had a hard time getting a quorum. And Senator 
Thurmond was very attentive to his Judiciary Committee duties, 
as he always has been, but wasn't going to provide a quorum 
because the items on the agenda were not in the interest of the 
Nation. But, if the Democrats got a quorum and could proceed 
with committee business, Strom wanted to be at the scene. So 
Strom waited right outside of the door in a position to join 
the quorum, should one occur, but not to create the quorum.
    Well, Senator Ralph Yarborough of Texas saw Strom standing 
out there and urged him to come in, and he got a negative 
response and then accelerated his urging, and then tried to use 
physical force on Strom--a very, very serious mistake. And 
there ensued an occurrence which I will not describe in any 
detail. Senator Thurmond will soon have the floor. But it 
results in Strom putting a scissors on Senator Yarborough, 
pinning him to the floor and perpetuating the absence of a 
quorum even by one additional member.
    I could not resist that short historical story seeing Strom 
stand at the door.
    Senator Thurmond. He was big and fat and couldn't handle 
himself well. [Laughter.]
    Senator Specter. That is not only an addendum, that is a 
confirmation.
    Thank you, Senator Thurmond. Thank you, Senator Sessions.
    Senator Sessions. Thank you. The combat veteran who 
volunteered to fly a glider plane on D-Day behind enemy lines 
won that battle outside this door.
    Well, we will be glad to listen to our panel, and I look 
forward to this. I would point out that we have talked a lot 
about new laws, and sometimes new laws are important. Sometimes 
we need new gun laws. But there are sometimes, I find, as an 
experienced prosecutor--I spent my life prosecuting cases 
professionally--that we like to do symbolic things and not real 
things.
    For example, we passed a bill that made it illegal to 
possess firearms on school grounds, title 18, 922(g). In 1997, 
there were only five prosecutions under it and eight in 1999. 
That was a lot of news media coverage about this new crime 
bill. But, really, when you talk about the thousands and 
hundreds of thousands of violent crimes out there, that is not 
a major impact on it.
    Look at unlawful transfer of firearms to juveniles. Not a 
bad law, 922(x)(1). Five prosecutions in 1997, six in 1998; 
whereas, we have had a 3,000 decline in prosecution of 
criminals with guns. Possession or transfer of semi-automatic 
weapons, that is the assault weapons ban, four in 1997, four in 
1998.
    Well, all I am saying to you is that a good, aggressive 
criminal justice program requires a serious confrontation with 
the criminal element. I believe that chart does reflect that 
the Federal Government has diminished its effort. I believe 
that the President's embracing Saturday--the day before 
yesterday--of the Exile Project is a good development and 
indicates that they have begun to analyze this and will seek to 
reinvigorate those joint Federal-State efforts to target 
violent criminals.
    [The prepared statement of Senator Sessions follows:]

                Prepared Statement of Hon. Jeff Sessions

    I would like to welcome our distinguished panel of witnesses that 
have joined us today. We are here today to examine the decline in the 
Department of Justice firearms prosecutions in the last six years. 
Violence involving guns plagues the vast majority of our nation's urban 
areas. There are some whose answer to this problem is to pass more laws 
restricting gun use. However, I believe our focus should be to 
revitalize our efforts in prosecuting violent offenders under our 
current federal laws.
    In fiscal year 1988, the Reagan Administration, based on the 
recommendations of the Bureau of Alcohol, Tobacco and Firearms (ATF), 
initiated an innovative program know as Project Achilles. The concept 
behind the initiative was that the illegal possession of firearms was 
the ``Achilles heel'' or the area of greatest vulnerability of 
criminals. By prosecuting the cases in federal court, the offenders 
were subject to stiffer penalties and expedited prosecutions. In 1990 
Congress allocated $4.5 billion for the program. The program functioned 
through task forces which targeted neighborhoods with the highest 
number of incidents of violent crime. The Achilles program was 
particularly effective in removing the most violent criminals from our 
communities.
    Project Triggerlock was initiated in April 1991 by the Bush 
Administration. Triggerlock continued the ideas formulated in the 
Achilles program and committed DOJ to the prosecution effort. Under the 
program, every United States Attorney was directed to form special 
teams of federal, state, and local investigators to look for 
traditional gang and drug cases that could be prosecuted under federal 
weapons laws. Such prosecutions frequently led to harsher penalties 
than they did in state and local courts. The Bush Administration 
obtained additional funding for these increased firearms prosecutions 
and hired a large number of new law enforcement officers and federal 
prosecutors to target these gun and drug offenders.
    Unfortunately, despite the success of this program, the Executive 
Office of United States Attorneys reports that prosecutions under 
Project Triggerlock have declined 46 percent since 1992. (See chart) I 
am concerned about such a substantial decline in light of the continued 
problems we face with violent crime, especially instances involving 
firearms. Some of my colleagues will suggest that more gun control 
legislation is needed to address the problem, but I believe we simply 
need to prosecute under the proven guns laws we currently have. What 
purpose would more restrictions and offenses serve if we are not taking 
advantage of the laws we already have.
    For example, according to the Executive Office of United States 
Attorneys, we are not even using the gun laws that have been passed in 
the last few years. We are all concerned about our youth and their 
access to guns. Violence in our schools has been the topic of numerous 
headlines and a great deal of discussion. Currently, there is a federal 
offense for possession of firearms on school grounds that directly 
relates to these concerns. (922q) And yet in 1997 there were only five 
prosecutions reported nationwide under this section, and only eight in 
1998. In the case of the offense for transferring firearms to a minor, 
the number of prosecutions reported under this section (922(x)(1)) is 
likewise surprisingly low, with five in 1997 and six in 1998. (See 
chart) My question remains ``why are these laws not being used?''
    Another issue that we need to address is the development of 
innovative programs to address crime and particularly those involving 
firearms. In 1997, the U.S. attorney's office in Richmond, VA developed 
and carried out an aggressive approach to violent crime known as 
``Project Exile.'' This program, like the Achilles Program and Project 
Triggerlock, takes advantage of expedited prosecutions and stiffer 
sentencing guidelines by prosecuting firearms violations in federal 
court. The program depends on the cooperation of local, state, and 
federal law enforcement officials and prosecutors and numerous other 
community leaders. This program appears to revitalize the successful 
Project Triggerlock and them takes it one step further by adding a 
media-community relations component. This program has been very 
successful in getting criminals off the street and in deterring others 
from the illegal use of firearms. Project Exile is so well known on the 
street in Richmond that David E. Boone, a criminal defense attorney was 
quoted in the New York Times as saying, ``The first thing I hear now 
when I talk to a client is `Can you keep this from going to Exile?' A 
lot of them can't add two and two, but they know a gun plus drugs 
equals five.'' (years in prison) I look forward to the testimony of our 
guests regarding this program and their suggestions for instituting 
this type of program on the national level.
    For two and a half years I have been urging Attorney General Reno, 
to no avail, to rethink the policy decision not to prosecute ``street'' 
violations of federal gun laws. I have repeatedly questioned her and 
her staff on why the number of prosecutions continue to fall. In 
testimony before this Committee, Attorney General Reno stated that one 
of the reasons for the decline in Triggerlock prosecutions was that the 
Department of Justice was pursuing more complex cases in order to stop 
the more serious multiple firearms offenders. In her opinion we should 
not be interested in numbers; she believes that we should be interested 
in how we impact the community. Well if that is the case shouldn't we 
consider the positive impact that Project Exile has had on the 
community. The statistics show that the violent crime rate in Richmond 
has gone down as a direct result of the program. I want to encourage 
the Department of Justice to be serious in their new found interest to 
support Project Exile's success.
    Project Triggerlock was initiated to combat violent crime, with 
millions of dollars and a substantial number of new and existing 
personnel dedicated to the program. In my experience with the program, 
I found it to be a very effective approach. I am disappointed that the 
Department of Justice has allowed Project Triggerlock to languish and I 
am hopeful they will see the need to revitalize this useful and 
successful program.

    Senator Sessions. Mr. Chairman, are we ready to start with 
our guests?
    Senator Thurmond. Yes.
    Senator Sessions. All right. I will introduce our guests.
    The first panelist is Mr. Tom Corbett. He currently serves 
as chairman of Pennsylvania's Commission on Crime and 
Delinquency. He was appointed to the post by Governor Tom Ridge 
in March of 1995. Before taking that position, he served as an 
Assistant U.S. attorney for western Pennsylvania. In 1989, he 
was appointed U.S. attorney for the Western District of 
Pennsylvania and served there until 1993 and was elected by his 
brother and sister U.S. attorneys as chairman of the U.S. 
Attorneys Advisory Committee. I enjoyed working with Tom, and 
he was an outstanding champion of effective law enforcement.
    Our next witness is Mr. Andrew Vita. He is the Assistant 
Director for Field Operations for the Bureau of Alcohol, 
Tobacco and Firearms. That is the ATF. He joined ATF as a 
special agent in 1969. He directs ATF's criminal enforcement 
regulatory field operations, which includes enforcement of 
explosives, firearms, arson, alcohol and tobacco laws, and ATF 
is the primary agency that has been charged with the duties of 
enforcement of firearm cases. We look forward to hearing from 
Mr. Vita.
    Mr. Corbett, we are glad to hear from you at this time, and 
I believe our time limit is 7 minutes. And it might be like 
court. The light will come on if you go too long.

     PANEL CONSISTING OF THOMAS W. CORBETT, JR., CHAIRMAN, 
 PENNSYLVANIA COMMISSION ON CRIME AND DELINQUENCY, PITTSBURGH, 
PA, AND FORMER U.S. ATTORNEY, WESTERN DISTRICT OF PENNSYLVANIA; 
  AND ANDREW L. VITA, ASSISTANT DIRECTOR OF FIELD OPERATIONS, 
   WASHINGTON FIELD DIVISION, BUREAU OF ALCOHOL, TOBACCO AND 
                    FIREARMS, WASHINGTON, DC

              STATEMENT OF THOMAS W. CORBETT, JR.

    Mr. Corbett. Thank you, Senator, Chairman, Senator 
Thurmond. As the Senator indicated, my name is Tom Corbett, and 
from November of 1989 until August of 1993, I served as U.S. 
attorney for the Western District of Pennsylvania.
    During that period of time, Attorney General Thornburgh 
appointed me to the Attorney General's advisory committee of 
U.S. attorneys. I was elected by the members of that committee 
to serve as chairman-elect in 1992 and chairman for 1993.
    I returned to the private practice of law for 2 years and 
was then appointed Attorney General of Pennsylvania by Governor 
Tom Ridge upon the resignation of the previous Attorney 
General. I make mention of these appointments only for the 
point that they gave me a perspective of the needs of law 
enforcement from both the State and Federal positions, as well 
as the needs and the wishes of the public across Pennsylvania.
    As you may recall, in 1989 this Nation was in the grip a 
sudden increase in crime, especially violent crime. We at the 
Department of Justice began to discuss what Federal law 
enforcement could do to assist our State and local counterparts 
in fighting this wave. At the same time, you in Congress, I 
believe in consultation with the Department of Justice and 
State and local law enforcement, sought ways to resolve the 
problems.
    On April 10, 1991, the Department of Justice announced 
Project Triggerlock. This was really the culminating point of a 
decade of Federal efforts to combat violent crime. It was a 
confluence of resources meeting strategy. Tough Federal gun and 
drug laws, more prison space, and more investigative resources 
were used in coordination with State and local law enforcement.
    Three Federal statutes were the core elements of 
Triggerlock, as I see it: first, 18 U.S.C. 922, the possession 
of a firearm by a felon, which carried a term of 10 years' 
imprisonment; second, 18 U.S.C. 924(e), possession of a firearm 
by an armed career criminal, which applied to defendants with 
three prior felony convictions for violent crimes and carried a 
minimum term of 15 years and a maximum term of life 
imprisonment; and, third, 18 U.S.C. 924(c), carrying or using a 
firearm during a Federal crime of violence or drug trafficking 
crime, which carried a mandatory minimum term of 5 years.
    In addition to these statutes, the change in Federal law 
that eliminated parole after November 1, 1987, and thus created 
truth in sentencing, the ability to obtain pretrial detention 
of violent criminals under the Bail Reform Act of 1984, the 
availability of prison space within the Federal prison system, 
and the ability to obtain a speedy trial in the Federal system 
were crucial elements in the creation of Triggerlock.
    In April 1991, each of the 93 U.S. attorney's offices 
established a Triggerlock task force comprised of 
representatives from the U.S. attorney's offices, State and 
local prosecutors, and Federal, State, and local investigative 
agencies. I stress the term ``team'' of agencies. Enforcement 
strategies were tailored to the needs of that particular 
district and that particular community.
    In the first year of operation, Project Triggerlock 
accomplished the following: 6,454 defendants charged with 
Federal firearms violations; Federal firearms prosecutions more 
than doubled from the previous year, and more than one out of 
ten of all Federal prosecutions included a firearms charge; 84 
percent of the Triggerlock defendants were felons, drug 
dealers, or violent criminals in possession of a firearm; the 
average sentence received by an armed career criminal under 
Project Triggerlock was 18 years without parole.
    This project had, I believe, a tremendous impact on the 
communities of the United States. Violent recidivists and 
career criminals can easily be considered one-person crime 
waves. With their incarceration, the victimization that is 
spared is really incalculable. Death, serious injury, and loss 
of property to many unknown victims were averted as a result of 
the emphasis on removing the armed violent criminal from the 
community.
    I also understand that today there is--or there was soon 
thereafter a major criticism that this program had too many 
small cases and not enough large--you can read this as sexy 
``news at 11'' type cases. In response to that criticism, I 
would like to say this: Throughout my career as an assistant 
district attorney and Assistant U.S. Attorney, U.S. Attorney, 
and Attorney General, I have never had a big case for 
prosecution develop without first having a small or, what some 
would say, insignificant case as a starting point. Just as when 
you look at the completion of a house or a building, you know 
it was built on a foundation and that foundation was made of 
smaller parts. So, too, any good criminal prosecution has a 
foundation of smaller parts. Oftentimes, these cases, these 
smaller cases, led to much larger cases either through the 
cooperation of the individual charged, in hoping to reduce his 
sentence in some way, shape, or form, or through further 
investigation by law enforcement.
    Further, I believe in March 1992--and I hope I am not 
stealing my panel colleague's thunder--ATF released a study of 
armed career criminals, and ATF reported this study of the 
inmates that had committed an average of 160 crimes per year. 
That was three crimes per week. Using the National Institute of 
Justice data, it has been estimated that taxpayers actually 
saved over $233,000 per year per inmate by incarcerating the 
armed career criminal.
    Triggerlock, I believe, has served as a model--and I know 
it has served as a model--for others as its emphasis has waned 
in Federal circles. In Pennsylvania, Governor Tom Ridge 
directed the Pennsylvania State Police to create their own 
version of Triggerlock to assist local law enforcement in 
ridding their communities of violence and drugs. This is aimed 
at communities that are much smaller than communities that 
normally the Federal Government becomes involved with. The 
results to date are encouraging. However, I have to wonder what 
these results would be if further supported by Federal 
resources to the extent expended in the early 1990's.
    I would also tell you that as a result of the Federal 
legislation, as a result of Triggerlock, many States have taken 
action. For instance, in Pennsylvania, we have changed our 
constitution to allow for pretrial detention. We have adopted 
Triggerlock. We have adopted a weed-and-seed program which is 
very popular. We have changed our juvenile laws considerably, 
and we have adopted ``three-strike'' legislation that we 
consider to be very well suited to the needs of Pennsylvania.
    I understand from my many recent visits to Richmond, VA, 
that there is an effort to re-create Triggerlock under the name 
Project Exile. I heartily endorse it and would hope that we 
could support in whatever way the actions of the U.S. attorney 
in Richmond. I hope that the effort is successful and that the 
Department of Justice will see fit to support it as it did in 
1991, especially in light of the comments of the President 
recently.
    With that, Senator, I would be happy to answer any 
questions that you may have at this time.
    [The prepared statement of Mr. Corbett follows:]

              Prepared Statement of Thomas W. Corbett, Jr.

    Ladies and gentleman of the Senate: My name Tom Corbett and from 
November 1989 until August of 1993 I served as the United States 
Attorney for the Western District of Pennsylvania.
    During my tenure Attorney General Thornburgh appointed me to the 
Attorney General's advisory committee of U.S. attorneys. I was elected 
by the members of that committee to serve as chairman elect for 1992 
and chairman for 1993. I returned to the private practice of law for 
two years and was then appointed attorney general of Pennsylvania by 
Gov. Tom Ridge upon the resignation of the previous attorney general. I 
make mention of these appointments as they gave me a perspective of the 
needs of law enforcement from both the state and federal positions, as 
well as, the needs and wishes of the public across Pennsylvania.
    As you may recall, in 1989 this nation was in the grip of a sudden 
increase in crime, especially violent crime. We at the Department of 
Justice began to discuss what federal law enforcement could do to 
assist our state and local counterparts in fighting this wave. At the 
same time you in Congress, I believe in consultation with the 
Department of Justice and state and local law enforcement, sought ways 
to resolve the problems. On April 10, 1991 the Department of Justice 
announced Project Triggerlock. This was the culminating point of a 
decade of federal efforts to combat violent crime. It was a confluence 
of resources meeting strategy. Tough federal gun and drug laws, more 
prison space and more investigative resources were used in coordination 
with state and local law enforcement.
    Three federal statutes were the core elements of Triggerlock. 
First, 18 U.S.C. 922(g) Possession of a Firearm by a Felon, which 
carried a term of 10 years imprisonment. Second, 18 U.S.C. 924(e) 
Possession of a Firearm by an Armed Career Criminal, which applied to 
defendants with three prior felony convictions for violent crimes and 
carried a minimum term of 15 years and maximum of life imprisonment. 
Third, 18 U.S.C. 924(c) Carrying or Using a Firearm during a Federal 
Crime of Violence of Drug Trafficking Crime, which carried a mandatory 
minimum term of 5 years.
    In addition to the statutes mentioned, the change in federal law 
that eliminated parole after November 1, 1987 and thus created truth in 
sentencing; the ability to obtain pretrial detention of violent 
criminals under the Bail Reform Act of 1984; the availability of prison 
space within the federal prison system; and, the ability to obtain a 
speedy trial in the federal system were crucial elements in the 
creation of Triggerlock.
    In April of 1991, each of the 93 United States Attorney's Offices 
established a Triggerlock Task Force comprised of representatives from 
the US Attorney's Office, state and local prosecutors and federal state 
and local investigative agencies. Enforcement strategies were tailored 
to the needs of the particular community.
    In the first year of operation, Project Triggerlock accomplished 
the following:

  <bullet> 6,454 defendants charged with federal firearm violations;
  <bullet> Federal firearms prosecutions more than doubled from the 
        previous year. More than one out of ten of all federal 
        prosecutions included a firearm charge;
  <bullet> 84 percent of the Triggerlock defendants were felons, drug 
        dealers or violent criminals in possession of a firearm;
  <bullet> the average sentence received by an armed career criminal 
        under Project Triggerlock was 18 years without parole.

    This project had, I believe, a tremendous impact on the communities 
of the United States. Violent recidivists and career criminals can 
easily be considered one person crime waves. With their incarceration 
the victimization that is spared is incalculable. Death, serious injury 
and loss of property to many unknown victims were averted as a result 
of the emphasis on removing the armed violent criminal.
    I understand that a major criticism of this program was that it had 
too many small cases and not enough large or big, read this as, sexy 
``news at 11'' cases. In response to that criticism let me say this. 
Throughout my career in law enforcement I have never had a ``big'' case 
or prosecution develop without first having a small or, what some would 
say, insignificant case as a starting point. Just as when you look at 
the completion of a house or building, you know that it was built on 
the foundation which often contains small building blocks. Without 
those blocks you never would have the final construction. It is the 
same with these prosecutions. Often times, these cases led to much 
larger cases either through the cooperation of the individual charged, 
or through further investigation by law enforcement.
    Triggerlock has served as a model for others as its emphasis has 
waned in federal circles. In Pennsylvania Governor Ridge directed the 
PA State Police to create their own version of Triggerlock to assist 
local law enforcement in ridding their communities of violence and 
drugs. The results to date are encouraging. However, I wonder what 
those results would be if further supported by federal resources to the 
extent expended in the early 90's.
    I understand from my many recent visits to Richmond VA that there 
is an effort to recreate Triggerlock under the name Project Exile. I 
hope that the effort is successful and that the Department of Justice 
will see fit to support it now as it did in 1991.
    I would be happy to answer any questions that you may have at this 
time.

    Senator Sessions. Thank you.

                  STATEMENT OF ANDREW L. VITA

    Mr. Vita. Good afternoon, Mr. Chairman and distinguished 
members of the Senate Judiciary Subcommittees on Youth Violence 
and Criminal Justice Oversight. My name is Andrew Vita. I am 
the Assistant Director of Field Operations for the Bureau of 
Alcohol, Tobacco and Firearms.
    Mr. Chairman, for all too many communities in the United 
States, firearms violence is a daily fact of life. We send the 
men and women of law enforcement in harm's way to protect and 
to serve. Believe me, we are all seeking practical solutions to 
gun violence.
    Police departments across the land are engaged in the fight 
to the extent where resources are often strained. Firearms 
violence is a grave national concern that must be addressed by 
the collaborative efforts of all levels of law enforcement. It 
is vital to take into consideration the different State laws 
and crime factors that can affect what the best strategy is for 
each community. ATF works closely with the offices of U.S. 
attorneys and State prosecutors to devise the best approach in 
each locality.
    ATF has a vital role to play in the fight against firearms-
related violent crime. Unlike any other law enforcement agency, 
we have the combined jurisdiction, expertise, and experience 
necessary to most successfully investigate gun trafficking and 
gun violence. ATF's unique assets, together with our renowned 
partnerships and cooperation with law enforcement at every 
level, make this true. With ongoing cooperation and the 
adequate resources, we can continue to build on our successes.
    A primary strategy that ATF is pursuing in conjunction with 
the U.S. attorneys is to reduce violent crime and deny 
criminals access to firearms. To do so, we believe in working 
smart. Working smart entails recognizing the reality that we 
are taking criminals off the street, and as we take those 
criminals off the street, more arise, necessitating the need to 
also reduce the illegal supply of crime guns.
    The criminal behind the criminal is the gun trafficker. We 
believe in attacking the problem from both ends and closing in 
the middle. Project Exile is one part of the full complement of 
ATF's integrated violent crime reduction strategy. That 
strategy includes ensuring that licensed gun dealers are in 
compliance with Federal, State, and local laws, and supporting 
police departments in the processing of gun crime and crime gun 
tracing and continuing programs such as the Youth Crime Gun 
Interdiction Initiative to identify and arrest illegal 
traffickers.
    As an example, in Richmond, VA, a trafficker who was a gang 
member used a straw purchaser to buy firearms at gun shows for 
other gang members. This case involved a street gang linked to 
gang warfare involving numerous homicides over the previous 3 
years. ATF, working with the Richmond Street Crimes Unit, has 
been able to document 11 such weapons purchased over a 5-month 
period, of which 8 were recovered in crimes. Almost all the 
guns were bought from federally licensed firearms dealers at 
gun shows.
    The trafficker acted as a straw purchaser for fellow gang 
members. The trafficker has been convicted and sentenced to 6 
years and 6 months in Federal prison. The trafficker's two co-
defendants were also successfully prosecuted for their 
possession of the firearms provided by the trafficker. Each co-
defendant received 5 years and 10 months for their 
participation with the guns provided by the trafficker.
    The gang leader was also successfully prosecuted separately 
and received 16 years and 3 months. These cases were made 
through vigorously enforcing the firearms statutes in 
conjunction with Project Exile and Youth Crime Gun Interdiction 
Initiative in Richmond.
    Typical of the success ATF can potentially have in a 
community where a local enforcement program has been designed 
for particular local circumstances was begun in Richmond in 
March of 1997. Beset with an escalating siege of violence, 
Richmond had ranked in the top five cities in the per capita 
murder rate for several years. ATF, in conjunction with the 
U.S. attorney's office and the Richmond Police Department, 
developed Project Exile to break the cycle of violence.
    It was a simple premise: Anyone caught with an illegal gun 
in Richmond will go to Federal prison for the minimum mandatory 
sentence of at least 5 years. Period. This criminal forfeits 
the right to remain in the community and exiled for 5 years. 
Using existing Federal law, prosecute all felons with guns, 
guns used in drug trafficking, and gun and domestic violence 
cases in Federal court.
    Because of the particular State laws and sentencing 
practices in Virginia, Project Exile provides stiffer penalties 
and quicker justice to its offenders. In a Virginia State 
court, for example, a convicted felon caught with a gun could 
be sentenced to between 1 and 5 years, with the possibility of 
early release. In Federal court, this same conviction carries a 
minimum of 5 years and a $250,000 fine. Project Exile puts 
potential offenders on notice. If they don't learn by word of 
mouth, perhaps they are warned by one of the Project Exile 
billboards or public service announcements that were donated by 
local businesses to publicize the program.
    The daunting prospect of serving time in a Federal facility 
is a deterrent to many offenders. In Richmond, officers have 
noticed a marked increase in the number of firearms being 
thrown to the ground by fleeing potential defendants. This 
demonstrates that the message of Project Exile is reaching the 
streets. It also results in more seizures of illegal guns.
    As an example of the deterrent effect, one Richmond case is 
worthy of mention. A defendant was caught with a substantial 
quantity of drugs during the execution of a search warrant. 
Surprisingly, no guns were recovered during the search. It was 
the first time officers could remember a defendant with such a 
large quantity of drugs not being armed in any way. Later, when 
the prosecutor questioned the defendant extensively about where 
the guns were, the defendant continued to vehemently deny 
having any firearms. He finally stated, ``Haven't you heard, 
man? Five years!''
    Now some hard statistics about Exile. Approximately 75 
percent of Exile defendants are denied bond and held in jail 
while awaiting trial. Three-fourths of all Exile defendants 
plead guilty, with no deal.
    Violent crime task forces staffed with ATF personnel are 
successful because they combined Federal agents and Federal 
experience and resources with State and local officers all with 
their own many assets. This is a powerful and effective 
alliance in confronting firearms violence.
    Such locally focused approaches as Project Exile, the 
Boston Gun Project, the Minneapolis Anti-Violence Reduction 
Initiative, Project CAGE in Chicago, and the Baltimore Youth 
Strike Force--all of which ATF works closely on with the U.S. 
attorney--are all tailored responses to particular local 
conditions. Each of them is a component of ATF's unique but 
collaborative comprehensive and fully integrated approach to 
combating firearms violence.
    Thank you, Senator, and we welcome any questions that you 
have.
    [The prepared statement of Mr. Vita follows:]

                  Prepared Statement of Andrew L. Vita

    Distinguished members of the Senate Judiciary Subcommittees on 
Youth Violence and Criminal Justice Oversight. Good afternoon. My name 
is Andrew L. Vita, Assistant Director of Field Operations for the 
Bureau of Alcohol, Tobacco and Firearms.
    For all too many communities in the United States, firearms 
violence is a daily fact of life. We send the men and women of law 
enforcement in harm's way to protect and serve. Believe me, we are all 
seeking practical solutions to gun violence. Police departments across 
the land are engaged in the fight to the extent where resources are 
often strained. Firearms violence is a grave national concern that must 
be addressed by the collaborative efforts of all levels of law 
enforcement. It is vital to take into consideration the different State 
laws and crime factors that can affect what the best strategy is for 
each community. ATF works closely with the offices of the U.S. 
attorneys to devise the best approach in each locality.
    The Bureau of Alcohol, Tobacco and Firearms has a vital role to 
play in the fight against firearms-related violent crime. Unlike any 
other law enforcement agency, we have the combined jurisdiction, 
expertise, and experience necessary to most successfully investigate 
gun trafficking and gun violence. ATF's unique assets, together with 
our renowned partnerships and cooperation with law enforcement at every 
level make this true. With ongoing cooperation and the adequate 
resources, we can continue to build on our success.
    A primary strategy that ATF is pursuing in conjunction with the 
U.S. attorneys is to reduce violent crime and deny criminals access to 
firearms. To do so, we believe in working smart. Working smart entails 
recognizing the reality that as we take criminals off the street, more 
arise--necessitating the need to also reduce the illegal supply of 
crime guns. The criminal behind the criminal is the gun trafficker. We 
believe in attacking the problem from both ends and closing in the 
middle. Project Exile is one part of the full complement of ATF's 
Integrated Violent Crime Reduction Strategy. That strategy includes 
ensuring that licensed gun dealers are in compliance with Federal, 
State, and local laws, and supporting police departments in the process 
of crime gun tracing and continuing programs such as the Youth Crime 
Gun Interdiction initiative to identify and arrest illegal traffickers.
    For example, Richmond, Virginia: Straw purchaser for gang at gun 
shows. A trafficker who was a gang member used a straw purchaser to buy 
firearms at gun shows for other gang members. This case involved the 
Charlie Boys street gang, linked to gang warfare involving numerous 
homicides over the previous three years. ATF, working with the Richmond 
Street Crimes Unit, has been able to document 11 such weapons, 
purchased over a five-month period, of which eight were recovered in 
crimes. Almost all the guns were bought from Federally licensed firearm 
dealers at gun shows. The trafficker acted as a straw purchaser for 
fellow gang members. In return for his plea to aiding and abetting the 
illegal possession, trafficking charges were dropped. The trafficker 
has been convicted and sentenced to 6 years and 6 months in Federal 
Prison. The trafficker's two co-defendants were also successfully 
prosecuted for their possession of the firearms provided by the 
trafficker. Each co-defendant received 5 years and 10 months for their 
participation with the guns provided by the trafficker. The gang leader 
was also successfully prosecuted separately and received 16 years and 3 
months. These cases were made through vigorously enforcing the firearm 
statutes in conjunction with Project Exile and Youth Crime Gun 
Interdiction Initiative (YCGII).
    Typical of the success ATF can potentially have in a community 
where a local enforcement program has been designed for particular 
local circumstances is a project begun in Richmond, Virginia, in March 
1997. Beset with an escalating siege of violence, Richmond had ranked 
in the top five cities in the per capita murder rate for several years. 
ATF, in cooperation with the U.S. attorney's office and the Richmond 
Police Department, developed Project Exile to break the cycle of 
violence.
    It was a simple premise: ``Anyone caught with an illegal gun in 
Richmond will go to Federal prison for the minimum mandatory sentence 
of 5 years. Period.
    This criminal forfeits the right to remain in the community and is 
`exiled' for 5 years. Using existing Federal law, prosecute all felons-
with-guns, guns-used-in-drug-trafficking, and gun/domestic violence 
cases in Federal court.''
    Because of the particular State laws and sentencing practices in 
Virginia, Project Exile provides stiffer penalties and quicker justice 
to its offenders. In a Virginia State court, for example, a convicted 
felon caught with a gun could be sentenced to between one and five 
years, with the possibility of early release. In Federal court, this 
same conviction carries a minimum of 5 years and a $250,000 fine. 
Project Exile puts potential offenders on notice. If they don't learn 
by word of mouth, perhaps they are warned by one of the Project Exile 
billboards or public service announcements that were donated by local 
businesses to publicize the program.
    The daunting prospect of serving time in a Federal facility is a 
deterrent to many offenders. In Richmond, officers have noticed a 
marked increase in the number of firearms being thrown on the ground by 
fleeing potential defendants. This demonstrates that the message of 
Project Exile is reaching the streets. It also results in more seizures 
of illegal guns.
    As an example of the deterrent effect, one Richmond case is worthy 
of mention. A defendant was caught with a substantial quantity of drugs 
during the execution of a search warrant. Surprisingly, no guns were 
recovered during the search. It was the first time officers could 
remember a defendant with such a large quantity of drugs not being 
armed in any way. Later, when the prosecutor questioned the defendant 
extensively about where the guns were, the defendant continued to 
vehemently deny having any guns. He finally stated, ``Haven't you 
heard, man? Five years!''
    Now some hard statistics about Exile: Approximately 75 percent of 
Exile defendants are denied bond and held in jail while awaiting trial. 
Three-fourths of all Exile defendants plead guilty, with no deal.
    Violent crime task forces staffed with ATF personnel are successful 
because they combine Federal agents, and Federal experience and 
resources with State or local officers and all their many assets. This 
is a powerful and effective alliance in confronting firearms violence. 
Such locally focused approaches as Project Exile, the Boston Gun 
Project, the Minneapolis Anti-Violence Reduction Initiative, Project 
CAGE in Chicago, and the Baltimore Youth Strike Force--all of which ATF 
works closely on with the U.S. attorneys--are all tailored responses to 
particular local conditions. Each of them is a component of ATF's 
unique but collaborative comprehensive and fully integrated approach to 
combating firearms violence. Thank you.

    Senator Thurmond. [presiding.] Thank you, gentlemen, for 
your statements. We will now go to questions.
    Mr. Corbett, you note in your testimony that Project 
Triggerlock focused on small cases rather than just high-
profile, large gun cases. If the goal is to reduce crime, 
please explain why it is important to stay focused on small 
cases.
    Mr. Corbett. Senator, I think that the best way to put that 
is to go back to the testimony I gave you of the average armed 
career criminal committing three crimes a week and 160 crimes a 
year. If you just take his one arrest as one gun case, you lose 
all the rest of those other cases, all those other arrests that 
have been prevented. That individual, before he was arrested, 
was committing crimes at a pace of that magnitude. You are 
reducing, I think significantly, with each individual who is an 
armed career criminal, a significant number of cases within the 
criminal justice system just by the incarceration of that 
individual.
    Additionally, as you have heard from Mr. Vita, as they are 
doing now down in Richmond, by taking cases at an almost zero 
tolerance level, the word gets out that carrying a firearm is 
going to require Federal prison time. You are not going to go 
through the State system, and if you happen to be in a State 
that you can get in and out and go through what we used to call 
the revolving door of the criminal justice system, and 
sometimes beat the police officer back to the street before he 
could get back to the street by the bond situation, you now 
have individuals aware that that doesn't happen in the Federal 
system, that possession of the firearm in many cases is deemed 
to be an individual who is dangerous to the public and, 
therefore, not entitled to bond.
    So the combination of using those small cases I believe is 
a preventive method as well as an apprehensive method of 
enforcing the law enforcement.
    Senator Thurmond. Mr. Vita, I understand that the Clinton 
administration has defended the drop in Federal firearms 
prosecutions by saying that less low-level offenders who 
receive a short jail term are being prosecuted while more high-
level offenders are being prosecuted.
    In the effort to reduce crime, do you think it is important 
to diligently prosecute all Federal firearms offenders, 
including low-level offenders?
    Mr. Vita. Absolutely, Mr. Chairman. We certainly support a 
balanced program in every one of our offices. We try to tailor 
an integrated violence reduction strategy in every office that 
is particularly suited to the circumstances of that community. 
In some cases, the crime problem may be driven by certain 
narcotics activity or criminal organizations. In other 
communities, it may be an arson program or an arson problem or 
an explosives-related problem.
    We were extremely successful in Richmond because I think it 
was an excellent collaborative effort between all levels of law 
enforcement, both Federal, State, and local, in targeting a 
particular problem that was facing the city of Richmond, and 
that was the very high homicide rate. It was the exceptional 
efforts of the local police, the Federal agents, as well as 
other Federal agencies that also contributed to that, to 
identify the particular problem and focus their available 
assets to going after that problem and trying to solve it. I 
think there are excellent results there.
    Senator Thurmond. Mr. Corbett, I understand that during the 
Bush administration, Attorney General Thornburgh issued a 
memorandum ordering U.S. attorneys to pursue gun charges and 
not drop them as part of plea bargains. I also understand that 
Attorney General Reno rescinded or modified this memo to give 
U.S. attorneys more discretion in whether to prosecute gun 
offenses.
    Do you think that the change in the Thornburgh memo had the 
effect of reducing firearms prosecutions in the Clinton 
administration?
    Mr. Corbett. Senator, I would have to say yes to that. That 
is one element. I think if you look at the chart over to my 
left, following that period of time you see a tremendous 
decrease in the number of Federal firearms prosecutions 
conducted by the Department of Justice. And I think what it 
reflects is a lack of emphasis on removing the armed career 
criminal or the armed felon from the streets, whether it be 
through a--or through the Federal system. So I would have to 
agree with that statement.
    Senator Thurmond. Mr. Vita, in the budget that President 
Clinton recently submitted to Congress for fiscal year 2000, he 
proposed to spend only $5 million for intensive firearms 
prosecution projects such as Project Exile. Given the success 
of Project Exile, do you believe it would be worthwhile to 
spend more on firearms prosecution projects like this?
    Mr. Vita. Senator, although Exile was extremely successful 
in Richmond, I would be concerned about using it as a cookie-
cutter response to crime and violent crime problems in other 
cities. Each city has its own unique problem, and it is 
important that you tailor whatever enforcement action that you 
would devote to that city's problem, as well as to the assets 
that are available from both the Federal, State, and local 
levels.
    We certainly support as much resources as can be made 
available to the Federal elements. We look to make an impact on 
the crime problem. We don't always measure our impact on cases 
and defendants. Oftentimes, that impact is a reduction in 
violent crime, which is extremely important and always one of 
our prime objectives.
    Senator Thurmond. Mr. Corbett, would you care to respond to 
my last question that I asked Mr. Vita?
    Mr. Corbett. Senator, many times we look at the issue of 
funds expended, and obviously additional funds are always 
beneficial. It allows you to hire more agents and more police 
officers and more prosecutors.
    But I would also say that, in addition to more funds, if 
somebody is told it is a priority, if the Attorney General--or 
now it seems to be the President has indicated on Saturday that 
this is a priority, then you, when you were running the U.S. 
attorney's office and working with law enforcement in your 
district, can make that your priority. You can move your assets 
around so that you can address the issue, and in this case I 
think that could help in many instances across the country 
where the U.S. attorneys know how their resources are being 
used and refocus the use of those resources.
    Senator Thurmond. Those are all the questions I have. I 
will now turn the matter over to Senator Sessions.
    Senator Sessions. Tom, I guess you would say on that 
question more money could help, but if it is your priority, gun 
prosecutions don't take up a major part of the Assistant U.S. 
attorney's work in a U.S. attorney's office, do they?
    Mr. Corbett. Well, as you know, Senator Sessions, that is 
correct. In fact, in many instances, U.S. attorneys will swear 
in an assistant district attorney from the county in which the 
crime arose or make that assistant district attorney a special 
U.S. Attorney, a special Assistant U.S. Attorney, and they 
become part of the team. And so that prosecutor is actually 
part of the district attorney's budget.
    Those police officers are actually part--they are usually 
sworn as deputy U.S. marshals. They usually become a part--they 
are still paid by the local community. So what it is, it is a 
focusing of the resources that already exist, but--throwing 
more money is great, but if you don't have that focus, if you 
don't have that priority, the additional money probably isn't 
going to help that much other than somebody saying, well, we 
have to spend this money because we got it.
    Senator Sessions. Mr. Vita, you mentioned you don't want to 
have a cookie-cutter approach. But if we have a 40 percent 
reduction in homicide in Richmond largely attributable to this 
project, are you telling us that a similar, intensively focused 
campaign in every city in America wouldn't reduce crime to a 
substantial degree in those cities?
    Mr. Vita. I would expect that reduction if the program was 
properly tailored to the circumstances for that city. You will 
have different attitudes by the community. You will have 
different prevalent crime problems in different parts of the 
country that all have to be addressed as well. But a 
concentrated effort, a collaborative effort between Federal, 
State, and local law enforcement will reduce violent crime in 
any community, yes.
    Senator Sessions. I think that is correct. I just don't 
want to suggest that an intensive effort, cooperative effort is 
not the key to it, and that is a question of leadership and 
priorities, both in the ATF and in the Department of Justice. 
Wouldn't you agree?
    Mr. Vita. I would agree, sir, yes.
    Senator Sessions. What was the event, if you will tell us, 
that caused the alteration in Triggerlock or something like 
Triggerlock initiatives? Weren't these initiatives joint 
Federal-State cooperative efforts with ATF and the U.S. 
attorney's office when they began?
    Mr. Vita. Yes, they were. Prior to Triggerlock being 
identified and developed, we had a program that began in the 
mid-1980's--I would say about 1985 or 1986--called Project 
Achilles, which was a result of the legislation that Senator 
Specter referred to that was passed in 1984, where we realized 
the value of concentrating all of our resources at the highest 
impact crime problems that were affecting a particular 
community.
    Senator Sessions. And, generally, that is people getting 
shot and killed.
    Mr. Vita. Most often, sir, yes, that is.
    Senator Sessions. And let me just correct something I said 
that wasn't fair to ATF. Really, Triggerlock began as Project 
Achilles with ATF, and it was sort of expanded and supported by 
the Department of Justice. Wasn't that correct?
    Mr. Vita. Well, we began a program in, I think, 1986 called 
Project Achilles that I know was, I am sure, part of the 
evolution of Triggerlock. Triggerlock was a Justice Department 
prosecution initiative. Ours was more of an investigative 
initiative the way that we kind of focused our resources into 
the areas that we would be able to have the greatest impact on 
reducing violent crime in those communities.
    Senator Sessions. It has been reported to me that there was 
an OMB letter of some kind that was issued, maybe as early as 
1994, that questioned the Triggerlock initiative and resulted 
in a pull-back to some degree of local prosecution type of gun 
cases. Is that true?
    Mr. Vita. I believe it was 1994, and probably affecting the 
fiscal year 1995 budget, in which--up until that point our 
Achilles program had been fully funded and had been expanded 
every year. Each year we got increases. At that point, I 
believe OMB's position was that there were certain examiners 
that considered the possibility that Achilles was a duplication 
of what State and local law enforcement should be doing, and 
that the Federal program should be directed more at curtailing 
the flow of firearms, crime guns, into those communities. And 
it kind of caused us to make some adjustments in our 
strategies, in our enforcement strategies, focusing more on 
where the Federal presence would be, the interstate movement of 
firearms that were fueling the violent crime problems in 
communities, sometimes placing resources in the source States 
as opposed to more of the receiver States.
    An example could be like New York City was having a high 
violent crime problem, but a good number of the guns ending up 
in New York City were coming from other States. And the Federal 
role in situations like that was to develop programs down in 
those source States to cut that flow of firearms off from going 
into New York as well as working on going after the violent 
offenders there in that city.
    Senator Sessions. So there was this memorandum in 1994 that 
was--could you get a copy of that for the committee?
    Mr. Vita. I believe--I will try and find the memorandum. I 
remember the issue more so through a response back from OMB, 
but we will try and find what the documentation is for this, 
yes.
    Senator Sessions. While I certainly have no objection and 
think it is a good initiative to trace guns and see if you can 
identify the source of that gun, isn't it also true that a 
large percentage of guns are just guns that were taken in 
burglaries or maybe stolen from a family member or borrowed 
from a family member?
    Mr. Vita. Oftentimes that happens, Senator. Different 
cities have different problems. Again, that is why I talk about 
tailoring the appropriate program for that city. There are some 
cities where the violent firearms problem and the source of 
guns comes from within the general community, such as Chicago. 
Chicago, the city itself, has very restrictive gun laws, but 
the suburbs surrounding Chicago have much laxer laws, and as a 
result, citizens and residents of Chicago just have to go to 
the suburbs to get the firearms that end up in crime in the 
city.
    Some places there is that short distance. In other places, 
there is an interstate issue where the guns are being brought 
from other States into that particular community.
    Senator Sessions. Well, I know people seem to be really 
interested in identifying the sources, and many times that is a 
very helpful strategy, particularly if you can identify a 
repeat supplier of illegal firearms. I salute that, and I think 
they deserve very serious punishment.
    But, fundamentally, the low-level drug dealer, the low-
level burglar who is packing a pistol in his pocket is likely 
to be the one that kills somebody, wouldn't you say, Mr. 
Corbett?
    Mr. Corbett. I would have to agree with that. I was 
encouraged by the story Mr. Vita related in Richmond where the 
individual was carrying a lot of drugs and didn't have a 
firearm on him. And I would point to--if you want to spend some 
money, I have always thought that we should be advertising what 
the penalties are a lot more than we do.
    Oftentimes, we would find individuals, especially 
individuals facing the mandatory minimums, whether they were in 
drug crimes or gun cases, when they were arrested did not know 
that they were facing in Federal court such a stiff penalty. 
Oftentimes, that was very helpful down the road in negotiations 
with them. But I always wondered if we should be spending--in 
addition to spending money for crime prevention, we ought to be 
spending money in sentence awareness in our communities to let 
them know that, you know, if they are arrested, they will face 
serious imprisonment in Federal courts.
    Senator Sessions. That is a good point, and I know Exile is 
doing that, and I salute them for it.
    Actually, I can remember discussing in my office, when 
Triggerlock started, putting up signs to say 5 years without 
parole if you are caught with a firearm in the commission of a 
crime.
    Mr. Corbett. We actually in Pittsburgh worked with one of 
the billboard companies, and they gave us four or five 
billboards in different communities that we were, in 
combination with our weed-and-seed program and with Project 
Triggerlock, were able to put up some--basically warning signs.
    Senator Sessions. Mr. Vita, I am looking at a Wall Street 
Journal article from August of last year quoting Mr. Kent 
Marcus, Attorney General Janet Reno's top aide on gun violence, 
before he had left to go back and teach law, and the Wall 
Street Journal quotes him as dismissing Project Exile as 
assembly line prosecutions that bleed resources from other law 
enforcement priorities, such as organized crime and high-level 
drug trafficking. `` `I don't think there is an empirical 
evidence' that Richmond's falling murder rate is related to 
Project Exile, said Mr. Marcus.''
    I take it that the Department of Justice and the President 
and you have a different opinion of that than the previous head 
of this department within the Department of Justice.
    Mr. Vita. Well, I don't know what Mr. Marcus was referring 
to as far as the data that he may have had, but from a general 
perspective, I don't necessarily agree with his comments.
    Senator Sessions. Well, you know, we talk and we try to 
make points here, but there is no doubt in my view--and I think 
Mr. Corbett has personally shared it with me, from his 
observation and talking to people around the country--that the 
administration did decide there are other ways to deal with 
violence than the Triggerlock-type initiatives, and they are 
responsible, deliberately and consciously, as Mr. Marcus who 
headed that, his statements would indicate, to reduce those 
prosecutions. I think and have thought since I got here that 
was one of the biggest errors the Department of Justice has 
made, and I am glad to see they are re-evaluating that at this 
time.
    What can you say about ATF's commitment to prosecute some 
of these new laws? Is the decline or are the low numbers of 
actual convictions reflecting fewer offenses or failure to 
coordinate with local law enforcement or making the cases? What 
idea would you have, Mr. Vita, about why there are so few 
prosecutions under those statutes?
    Mr. Vita. Well, when I first saw the numbers, I questioned 
myself if they were accurate. I asked to have some research 
done to see if our statistics for the cases that we have 
recommended match up with those that are reflected on your 
chart. And the information that I was given is that they are 
quite different, so I would like to research that further, and 
I will certainly provide that information to the committee and 
yourself for the record.
    But from an overall perspective, I would think that that--
is the source for those the Department of Justice?
    Senator Sessions. Department of Justice, actual 
convictions. Now, you may have recommended others. They may not 
have prosecuted them or whatever.
    Mr. Vita. But I will research that and come up with----
    Senator Sessions. They represent indictments, I understand.
    Mr. Vita. Indictments? OK. Now, I assume those are 
indictments that occurred during those years.
    Senator Sessions. That is correct.
    Mr. Vita. We will check our files and records to see what 
our statistics reflect.
    Senator Sessions. You know, those are not necessarily 
unusable statutes, but they are pretty specific. It is the 
powerful, normal, bread-and-butter cases, people carrying 
firearms during the commission of a felony, felons in 
possession. Those are the cases that you normally see.
    Well, I have enjoyed this very much. Thank you for your 
testimony, and, Senator Thurmond, do you have anything else of 
this panel?
    Senator Thurmond. I thank you both for your testimony, and, 
Senator Sessions, I have another engagement. For panel two, 
would you take over?
    Senator Sessions. [presiding.] Thank you, sir. We would.
    Mr. Corbett. Thank you, Senators.
    Mr. Vita. Thank you, sir.
    Senator Sessions. We will now have the next panel. I will 
commence the introductions while you are finding your seats.
    Our first panelist is Helen Fahey. She has been appointed 
to serve as U.S. attorney for the Eastern District of Virginia 
in 1993, a job which is perhaps the greatest job in the world, 
except maybe being an assistant U.S. attorney. She previously 
served as the Commonwealth of Virginia's attorney for Arlington 
County. She has extensive experience with firearms prosecutions 
and brings with her some distinguished credentials. She 
currently sits on numerous U.S. attorney's subcommittees, 
including the Violent Crimes Subcommittee, and, of course, it 
is her district within which Project Exile that we have been 
complimenting is carried out.
    Chief Jerry Oliver became Richmond's 13th police chief in 
1995. Prior to joining the department, he served with 
distinction in a number of metropolitan police forces, 
including Phoenix, Memphis, and Pasadena. He was recently named 
Richmond's Administrator of the Year and was awarded the 
prestigious Medal of Meritorious Service from the Richmond city 
manager for his innovative leadership of the Richmond Police 
Department. We thank the chief for being with us today.
    John Timoney accepted Mayor Ed Rendell's invitation to lead 
Philadelphia's Police Department last March. He began his law 
enforcement career--in New York, it says here. But Senator 
Specter said you began when he hired you. Is that correct?
    Mr. Timoney. No, no. He was talking about Mayor Rendell he 
hired.
    Senator Sessions. All right. Very good. He began his law 
enforcement career in New York in 1967. By 1994, he had become 
the youngest ever chief of a department in New York Police 
Department history, and we look forward to your testimony.
    Donald Stern was appointed by President Clinton to be U.S. 
attorney for the District of Massachusetts in November of 1993. 
Before coming to the U.S. attorney's office, he was a senior 
partner with a Boston law firm. He served for a time as former 
Governor Dukakis' chief legal counsel, and Boston is doing a 
number of innovative things in crime. We look forward to 
hearing from you, Mr. Stern.
    Ms. Fahey, I would recognize you first.

  PANEL CONSISTING OF HELEN F. FAHEY, U.S. ATTORNEY, EASTERN 
DISTRICT OF VIRGINIA, ALEXANDRIA, VA; JERRY A. OLIVER, CHIEF OF 
     POLICE, CITY OF RICHMOND, VA; JOHN F. TIMONEY, POLICE 
 COMMISSIONER, CITY OF PHILADELPHIA, PA; AND DONALD K. STERN, 
      U.S. ATTORNEY, DISTRICT OF MASSACHUSETTS, BOSTON, MA

                  STATEMENT OF HELEN F. FAHEY

    Ms. Fahey. Thank you, Senator Sessions. It is a pleasure to 
be here. I hope that I don't repeat too much of what was 
already said by both you and Senator Specter and Senator 
Thurmond and also Mr. Vita from ATF.
    One of the most important priorities of the Attorney 
General has been the reduction in violent crime. I think the 
results have been nothing less than amazing. The Attorney 
General charges each U.S. attorney with developing a violent 
crime initiative for their district. Project Exile is just one 
part of the Eastern District of Virginia's violent crime 
initiative.
    As my criminal supervisor in Richmond, Mr. Comey, who is 
sitting behind me, has described it, Project Exile is 
essentially ``Triggerlock with steroids, plus community 
involvement and advertising.''
    For more than a decade, the newspaper headlines have read 
the same: Another murder in the city of Richmond, murder rate 
rises, gun violence continues. It was stark reality that the 
capital of the Commonwealth of Virginia was routinely among the 
five cities with the worst per capita murder rates in the 
country.
    In 1997 alone, 140 people were murdered, 122 of them with 
firearms. Even while homicide rates were dropping in many areas 
of the country, they were actually increasing in Richmond. The 
use of guns by drug dealers, the willingness of many to flaunt 
the law and carry weapons, and the high incidence of domestic 
violence fueled this high and ever increasing murder rate.
    In 1997, the U.S. attorney's office for the Eastern 
District of Virginia developed and initiated Project Exile in 
Richmond aimed at reducing the senseless and unbridled violence 
which was plaguing the city. Project Exile is an aggressive, 
innovative, and creative approach to reducing the murder rate 
by changing the culture of violence in Richmond through a 
comprehensive, multi-dimensional strategy. This strategy 
includes both law enforcement and prosecution components aimed 
at deterrence, as well as community outreach and education 
programs focusing on prevention.
    Project Exile is simple and straightforward in its 
execution and requires relatively limited prosecution and law 
enforcement resources. The program's focus and message is 
clear, concise, easily understood, and, most importantly, 
unequivocal. The message: An illegal gun gets you 5 years in 
Federal prison.
    For criminals carrying guns, the consequences have been 
swift, certain, and severe. For the citizens of Richmond, the 
results have been dramatic. They have taken back their 
neighborhoods and now live in safer communities where houses 
can become homes and neighbors can truly become friends.
    Project Exile has fully integrated and coordinated local, 
State, and Federal law enforcement agencies and local and 
Federal prosecutors. This widely based task force accomplished 
prompt identification of a potential Project Exile defendant 
through the use of an expedited reporting system, which has 
decreased processing time from several months to several days. 
In court, bond is routinely and successfully opposed. 
Defendants receive speedy trials, and mandatory minimum 
sentences are imposed. The average sentence for a Project Exile 
defendant is 53.6 months.
    With swift and certain justice, the project has deterred 
violent crime in the city of Richmond by changing the culture 
of violence and criminal behavior. As of March of this year in 
Richmond, 438 individuals have been indicted, 512 guns have 
been seized, 331 persons have been arrested or are in State 
custody, 236 arrestees, approximately 74 percent, have been 
held without bond.
    Senator Sessions. Ms. Fahey, are those this year or just 
since the beginning of the program?
    Ms. Fahey. They are for approximately 2 years, since the 
beginning--approximately March of 1997. Three hundred and two 
have been convicted, 215 have been sentenced, and the average 
sentence, as I said, is 53.6 months.
    The other major and essential component of the project 
addresses prevention. Project Exile has been an innovative 
community outreach and education initiative using various media 
to get the message to the criminals that illegal guns are 
unacceptable and will not be tolerated.
    More importantly, it has built a community alliance 
directed at the problem. A coalition of business, community, 
and church leaders, and organizations such as the Retail 
Merchants Association and the Chamber of Commerce, has been 
assembled to promote the project. The coalition, operating as 
the Project Exile Citizen Support Foundation, has funded a 
creative advertising campaign including T.V. and radio 
commercials, billboards, a city bus completely painted black 
bearing the logo, ``An illegal gun gets you 5 years in Federal 
prison,'' more than 15,000 business cards with the same message 
distributed on the streets by local police, and a print 
advertising campaign.
    This outreach program has been extremely successful 
increasing citizen reports about guns and energizing the 
community to support police efforts. Through these efforts, 
hundreds of armed criminals have been removed from Richmond's 
streets. One violent gang responsible for many murders has been 
dismantled, its members now in prison. The rate of gun-carrying 
has been reduced, protecting not only the public but police 
officers as well. Officers now report seeing drug dealers 
throwing down weapons rather than taking the risk of being 
caught with them.
    Because of the demonstrated results in Richmond, the U.S. 
attorney's office in the Eastern District of Virginia has 
expanded Project Exile to the tidewater area of Virginia and is 
committed to continuing Project Exile as long as it is needed.
    Other cities have taken note of Project Exile's impact on 
Richmond, and Project Exile has now been fully implemented in 
Rochester, NY, which is already seeing success similar to that 
in Richmond. Other cities such as Philadelphia, Oakland, 
Birmingham, Baton Rouge, and Camden, NJ, are in the process of 
implementing the Project.
    Project Exile has proven that a comprehensive, multi-
dimensional strategy can and will work. It can be a vital tool 
in accomplishing one of President Clinton's top priorities: 
reducing the gun violence on the streets.
    While it is generally believed that Project Exile has been 
a major factor in contributing to the decline of homicides in 
Richmond, I am not suggesting it has been the only factor. In 
addition to Project Exile, there have been numerous city and 
police initiatives as well as FBI and DEA task forces which 
have been responsible for removing many violent drug 
organizations from the city. The Marshals service also 
conducted a major fugitive operation in Richmond which resulted 
in the arrest of hundreds of criminals.
    I would like to take just a moment to recognize the 
contribution of so many individuals and organizations that I 
have described in some detail in our submission to the 
committee. I would also like to recognize the contribution of 
the Department of Justice and, in particular, Deputy Attorney 
General Eric Holder, who personally coordinated an increase in 
Federal resources for the city of Richmond.
    Thank you.
    I would also like at this time, if I may--the Department of 
Justice submitted a written statement which includes, I 
believe, all our statements. I would ask that that be included 
as part of the record.
    Senator Sessions. We will make it a part of the record.
    [The prepared statements of the Department of Justice, Ms. 
Fahey, and Mr. Stern follow:]


 
                         DEPARTMENT OF JUSTICE

                               STATEMENT

                                   OF

                       THE DEPARTMENT OF JUSTICE

                      INCLUDING THE STATEMENTS OF

                 UNITED STATES ATTORNEY HELEN F. FAHEY 
                     (Eastern District of Virginia)

                UNITED STATES ATTORNEY DONALD K. STERN 
                      (District of Massachusetts)

                               BEFORE THE

                            SUBCOMMITTEES ON

                       CRIMINAL JUSTICE OVERSIGHT

                                  AND

                             YOUTH VIOLENCE

                               CONCERNING

                         FIREARMS PROSECUTIONS

                              PRESENTED ON

                             MARCH 22, 1999

            Prepared Statement of the Department of Justice

    The Department of Justice (DOJ) appreciates this opportunity to 
present testimony on firearms prosecutions for consideration by the 
Judiciary Committee's Youth Violence and Criminal Justice Oversight 
Subcommittees. We are pleased to report on the Department's work in the 
area of firearms violence; our strategic approach to violent crime and 
our emphasis on strong partnerships among federal, state and local law 
enforcement are paying sizable dividends for public safety.
                the historic reduction in violent crime
    Over the past six years, we have developed and implemented several 
effective national strategies to reduce crime. These have included 
helping fund more new local law enforcement officers, preventing 
illegal gun sales through Brady background checks, and targeting 
violent crime through strategic initiatives.
    Since 1992, the nation's crime rate has dropped by more than 20 
percent. In certain communities, the integrated efforts of federal, 
state, and local law enforcement and other community leaders have 
produced even more dramatic drops in the violent crime rate. In Boston, 
Massachusetts, for example, collaboration among law enforcement and 
community leaders through Operation Ceasefire reduced violence by youth 
gangs and brought down the number of homicides 64 percent in three 
years. In Minneapolis, Minnesota, effective law enforcement and 
prevention efforts conducted by public-private partnerships have 
reduced homicides by 30 percent and summertime homicides by 75 percent. 
And in Richmond, Virginia, effective and coordinated law enforcement, 
including stepped-up enforcement of gun crimes through the program 
known as ``Project Exile,'' has reduced the homicide rate by more than 
30 percent in the last year. Nationally, homicide rates have declined 
to levels last seen in the 1960's.
        the reduction in violent crimes committed with firearms
    There has also been a sharp decline in the number of violent crimes 
committed with firearms nationwide. Between 1992 and 1997, there was an 
overall decrease of 27 percent in the estimated total violent crimes 
committed with firearms reported by state and local law enforcement 
agencies to the Federal Bureau of Investigation (FBI). This decrease is 
depicted in Graph 1. See Attachment A. During this period, homicide 
with firearms dropped 24 percent; robbery with firearms, 27 percent; 
and aggravated assault with firearms, 26 percent. The decline in the 
rate of aggravated assaults committed with firearms is depicted in 
Graph 2. See Attachment B.
    Despite what we regard as very good news with respect to firearms 
violence, the Justice Department views the continued reduction of 
violent crime--including violent crime committed with firearms--as a 
top priority. The number of people killed with firearms remains 
unacceptably high, as more than 14,000 people were murdered with guns 
in our nation in 1997.
    We will continue to work with the Department of the Treasury and 
other federal, state and local agencies to reduce gun violence, and 
will be developing a coordinated firearms violence reduction strategy 
as outlined in the President's directive signed this past Saturday. Our 
strategy will draw on the proven measures and other innovative 
approaches being demonstrated by communities throughout the country. 
Through the continued leadership of the United States Attorneys and the 
Bureau of Alcohol, Tobacco and Firearms (ATF), we will assure that 
federally licensed firearms dealers comply with all applicable laws; 
that crime gun information developed through comprehensive tracing, 
mapping and analysis is used strategically to identify illegal gun 
markets, gun hot spots and illegal gun traffickers; and that illegal 
possessors, users and traffickers of guns receive appropriate 
sanctions. Many of the tough and effective crime-fighting strategies 
focusing on gun violence that have been put in place are highlighted in 
a new DOJ Report, entitled ``Promising Strategies to Reduce Gun 
Violence,'' which was released by the President on March 20. The 
report, which is described in the attached fact sheet, see Attachment 
C, summarizes and analyses 60 such local strategies, including those to 
which we refer in this statement.
    We believe that the most effective strategies will be coordinated 
efforts in which federal prosecutors and investigators team up with 
state and local prosecutors and investigators, as well as other 
community leaders, to determine what prevention and intervention 
methods will work best, and which available sanctions are most 
appropriate. Among the programs that we are asking communities to 
consider as they develop their own strategies are the programs 
featuring coordinated aggressive prosecution of gun cases that is 
called ``Project Exile'' in Richmond, Virginia, and ``Operation 
Ceasefire'' in Boston, Massachusetts. We are pleased that you will be 
hearing directly from the two United States Attorneys who are leading 
these programs. The statements of Donald K. Stern, United States 
Attorney for the District of Massachusetts, and Helen F. Fahey, United 
States Attorney for the Eastern District of Virginia, are attached 
hereto. See Attachments D & E.
         increased collaboration on firearms and violent crime
    Given the uniquely federal system of government in the United 
States, no crime reduction strategy can ignore the fact that the vast 
majority of the violent crime in our country falls within the 
jurisdiction of state and local agencies or that the vast majority of 
resources to fight crime are provided by state and local governments.
    In some areas, of course, such as multi-district trafficking in 
drugs, weapons, or aliens, crime must be attacked primarily at the 
federal level. In most other areas, including where state and local 
governments have primary responsibility, the federal government is most 
helpful to the extent it provides support, leadership, statutory tools, 
and coordination.
    In the past few years, federal, state and local law enforcement 
have collaborated in numerous violent crime task forces and specially 
targeted initiatives. These collaborative efforts, as exemplified by 
the Department's Anti-Violent Crime Initiative (AVCI), provide for 
greater flexibility at the district level to develop firearms and 
violent crime prosecution strategies in coordination with state and 
local prosecutors.
    DOJ introduced the AVCI in 1994, broadening the national violent 
crime focus from one emphasizing firearms violations alone 
(``Triggerlock'') to one that strategically targets violent crime as 
manifested in local communities. AVCI relies on collaboration among law 
enforcement, which has resulted in more prosecutions being handled in 
the jurisdiction best suited to a particular case.\1\ AVCI has 
generated an increased focus on gangs and other violent crime 
enterprises that frequently involve firearms violations. This expanded 
focus had yielded cases that are more difficult to develop but which 
can have a greater impact on community safety than individual firearms 
prosecutions. For example, successful prosecutions have been brought 
against major gangs such as the Latin Kings in the East and the 
Gangster Disciples in the Midwest.
---------------------------------------------------------------------------
    \1\ Under the AVCI, the Attorney General asked each United States 
Attorney to meet with all pertinent federal, state and local law 
enforcement agencies in the district form a new, or strengthen an 
existing, violent crime working group. Each office was asked to 
identify the district's most critical violent crime problems 
susceptible to a coordinated federal/state/local attack, the relative 
priority of these problems, the law enforcement programs and resources 
currently dedicated to the investigation and prosecution of these 
problems, the results achieved to date from these efforts, and any 
multi-district or multi-jurisdictional aspects of these problems. After 
they had collected the appropriate information, each office was asked 
to develop a single district plan to implement an appropriate 
prosecutive strategy for the district. The goal of that initiative was 
to complement, not supplant, the efforts of state and local 
prosecutors. The key was to develop a strong partnership in the effort 
against violent crime with state and local officials in the way that 
would be most productive.
---------------------------------------------------------------------------
    The Justice Department expects to build on these successes by 
helping more communities develop strategies and solutions that take 
into account the specific elements of the gun violence problem as 
experienced by those communities. Our United States Attorneys should be 
permitted to rigorously analyze their local crime problems and then to 
determine the most sensible and efficient allocation of their resources 
based on those problems. Because no single formula for combating gun 
violence works in all, or even most, settings, it would be a mistake 
for DOJ to mandate the use of any particular formula across the 
country, and such an attempt might significantly hamper the ability of 
the United States Attorneys to combat all types of federal crime.
             the increase in overall firearms prosecutions
    As you know, the number of federal firearms prosecutions has 
decreased between 1992 1998.\2\ The decrease in federal cases does not, 
however, mean that criminals are avoiding prosecution or receiving 
substantially shorter sentences. The federal, state and local law 
enforcement systems are coordinating more closely, and federal 
prosecutors appear to be focusing greater attention on higher-level 
firearms offenders. At the same time, many states have increased 
enforcement efforts and/or penalties for firearms offenders.
---------------------------------------------------------------------------
    \2\ We understand that the chart prepared by the Subcommittee 
entitled ``Project Triggerlock Prosecutions fiscal year 1992-1998'' is 
based on data from the United States Attorneys Annual Statistical 
Report. As you know, we also maintain a separate hand count on 
Triggerlock cases which we believe is more inclusive than the count 
derived from the Annual Statistical Report. (We are in the process of 
merging the two systems.) Accordingly, we have prepared a chart to 
reflect the same data that the Subcommittee apparently wanted 
reflected, but using the Triggerlock data which also accounts for these 
cases. See Graph 3, Attachment F. You will note that the total 
Triggerlock prosecution numbers for 1996, 1997, and 1998 reflected on 
this graph are identical to those we sent in our letter of March 10, 
1999 in response to a request for data from Senator Sessions.
---------------------------------------------------------------------------
    Data from the Administrative Office of the U.S. Courts suggests 
that much of the decline in federal firearms prosecutions between 1992 
and 1997 occurred among lower-level offenders who received sentences of 
probation up to imprisonment for less than 3 years, while the number of 
higher-level federal firearms offenders--those who received prison 
sentences of 5 years or more--has increased more than 25 percent. See 
Graph 4, Attachment G.
    Between 1992 and 1996--when most of the decline in federal firearms 
prosecutions occurred--state prosecutions of weapons offenders 
increased sharply, more than offsetting the federal decline. See Graph 
5, Attachment H. Moreover, most of the additional state weapons 
offenders received prison or jail sentences. See Graph 6, Attachment I.
    Some of the decrease in federal firearms charges is the result of 
decisions by federal prosecutors to use federal sentencing guideline 
enhancements for gun use (for example, seeking a stiffer sentence when 
a drug trafficker uses a gun), instead of bringing separate gun charges 
in the case. This was particularly the case after the United States 
Supreme Court's Bailey decision in 1995 that affected the government's 
ability to obtain convictions under 18 U.S.C. 924(c), also causing a 
decrease in the number of federal firearms charges.
                               conclusion
    Working together, we have made significant progress in the fight 
against violent crime--especially that involving firearms. It would be 
a profound mistake to rest on our laurels, however. We have an historic 
opportunity and responsibility to press our advantage. America remains 
one of the most violent of the industrialized countries, and we can--
and must--redouble our efforts to uproot the culture of violence in our 
nation. Our efforts in the last six years are clearly a prescription 
for success, and we look forward to furthering that success to make 
America even more secure against violent crime.
[GRAPHIC] [TIFF OMITTED] T9738.001

[GRAPHIC] [TIFF OMITTED] T9738.002

[GRAPHIC] [TIFF OMITTED] T9738.003

[GRAPHIC] [TIFF OMITTED] T9738.004

Attachment D

                 Prepared Statement of Donald K. Stern

    Chairman Thurmond, Chairman Sessions, Senator Biden, Senator 
Schumer, and other Members of the Subcommittees. Thank you for inviting 
me to testify this afternoon on gun prosecutions. I have spent a good 
deal of the last 5\1/2\ years as the United States Attorney for the 
District of Massachusetts, focusing on this issue, as part of the 
effort to reduce youth violence. I have also served as the Chair of the 
Attorney General's Advisory Committee of United States Attorneys. And, 
I am pleased to report that Federal prosecutors' partnerships with 
federal, state and local law enforcement agencies, as well as with 
others in Boston, have achieved considered success. Indeed, over 200 
different jurisdictions have come to Boston to learn about what some 
have referred to as the ``Boston model.''
    First, please let me briefly set the scene--describing what things 
were like in the early 90's in Boston and what they are like now. Then, 
I will identify three basic reasons for this success. After that, I 
would be pleased to respond to whatever questions members of the 
Committees might have.
    In 1990, homicides were at an all time high in Boston. Drive-by 
shootings were commonplace. Parents were afraid to let their children 
play outside. There was a real question about the viability of the 
City.
    These problems were symbolized by two events, now etched in the 
memory of Boston. The first occurred in December, 1992, when fourteen 
gang members invaded the Morning Star Baptist Church during the funeral 
of a young murder victim, who had been shot in a drive-by killing. A 
21-year old man was beaten and stabbed in the Church. Then, in December 
of 1993, Louis Brown was murdered. Louis was a 15 year old honor 
student, who attended West Roxbury High School. His dream was to be 
this Nation's first African-American President. While on his way to an 
afternoon anti-gang meeting, Louis was murdered in the cross-fire 
between two gangs.
    Things have dramatically changed. Between 1995 and 1998, homicides 
dropped by 64 percent. In 1998, there were 35 homicides in Boston, as 
compared with 152 in 1990. This year, thus far, there have been four 
murders in Boston, down another 56 percent from this time last year. 
Indeed, serious crime across the board is at its lowest level in 30 
years.
    And then there was that period from July 1995 through December, 
1997, when not one juvenile in Boston was murdered by a gun. I repeat, 
not one juvenile in Boston was murdered by a gun. While we knew that 
this could not last forever, this time of peace underscored that we 
were on to something successful.
    In 1990, 51 Boston young people, ages 24 and under, were murdered 
by a firearm. Last year, there were 16 such murders and this year, thus 
far, zero.
    I attribute this remarkable success to three things:

          1. The creation of true partnerships between local, county, 
        state and federal officials as well as community leaders, the 
        faith community and business leaders.
          2. A willingness for those people to step out of traditional 
        roles; and
          3. A focused and targeted law enforcement strategy.
                         1. build partnerships
    There is no question that the law enforcement community in Boston 
has its act together--we are co-operating in ways unthinkable in years 
past. While we shouldn't get medals for this--taxpayers should expect 
it--you are probably not surprised to hear that turf battles among law 
enforcement agencies can be fierce, even if counterproductive. For the 
past several years, the relationships among local, state and federal 
law enforcement has been a model for the country.
    But this co-operative law enforcement effort would have fallen 
short unless there was an equally important component of developing a 
community-based justice system. Some of this is what's known as 
community policing. Helped by the additional COPS provided under 
President Clinton's Crime Bill, Boston, and many other communities in 
Massachusetts, have reoriented policing to solve problems, rather then 
simply react to 911 calls.
    But, in Boston, the concept of community policing has been expanded 
to include other parts of the criminal justice system, in particular 
the prosecutors. Prosecutors, even federal prosecutors, now see their 
role as pro-actively solving problems and making things safer in the 
community, not just handling a conveyor belt of cases. As you know, 
President Clinton has asked for $200 million in his fiscal year 2000 
budget to fund the hiring of tough-on-crime prosecutors who can work on 
key community crime problems such as guns, gangs and drugs. Deputy 
Attorney General Eric Holder--who pioneered such a project in 
Washington, DC when he was U.S. attorney--is spearheading that effort 
for the Department.
    The final part of building partnerships, and perhaps the most 
important, is creating working-relationships with the community--
whether it be the religious community, street workers, crime watch 
groups, or public housing tenant organizations. The success of Boston 
is due as much to these community based efforts as it is to anything 
law enforcement has done or can do.
                            2. rethink roles
    The second reason for Boston's success is that people have been 
willing to step outside of their traditional roles and in some cases 
blur what were often thought to be bright line distinctions. Police 
have gotten out of patrol cars and are listening at community meetings. 
Prosecutors are in the neighborhoods and the schools. Probation 
officers have come out from behind their desks and are making home 
visits. They ride along in police cars so that the people they 
supervise know that they are out there--watching.
    Community groups are actively cooperating with the police. 
Ministers have descended from the pulpit and are walking the streets. 
And the list goes on.
             3. focus and targeted law enforcement strategy
    If some of this talk of co-operation and community based justice 
sounds vague and soft, let me clear that up right now. The third and 
essential leg of the Boston strategy is aggressive, focused and 
targeted prosecution and law enforcement. This means determining who 
are the relatively small number of violent criminals in Boston and 
going after them with the combined fire power of local, state and 
federal law enforcement.
    While in many cases, this will mean state prosecution, critical 
part of the strategy is federal prosecution--with long sentences and no 
parole. In Boston, the federal priorities in this area are three-fold.
    First, we are targeting gun traffickers, those who illegally sell 
guns, seemingly oblivious to the deadly consequences.
    Secondly, we are going after repeat violent offenders--criminals 
who have racked up many convictions and seem to recycle through the 
state system.
    Third, we are picking off organized violent gangs, usually for drug 
and fire arms offenses, but sometimes for murder.
    This approach is premised on a few simple facts. Youth homicides 
are concentrated in neighborhoods that have probably less than 75 
gangs, involving approximately 1,300 youth. Although gang turfs 
constitute less than four percent of the city, they account for 25 
percent of Boston's serious crime.
    Most youth living in these ``hot spots'' are well known to the 
criminal justice system. Indeed, 75 percent of known homicide offenders 
and victims had been arraigned for at least one offense.
    We have made no secret of this strategy--dubbed Operation 
Ceasefire. In fact, a key component is that the entire law enforcement 
community--local, state and federal--deliver a unified, clear message 
that unless the violence stops, gang members will be subject to an 
intense level of scrutiny. Gang members are explicitly told, often in 
face-to-face meetings, that they have a basic choice--stop the flow of 
guns and stop the violence or face rapid, focused and comprehensive 
enforcement.
    In certain instances, it means long federal sentences. One such 
case involved a 24 year old man who, as an adult, had 15 prior state 
felony convictions, almost half of which were for crimes of violence or 
drugs. He was stopped by a Boston officer, after handing off a gun to a 
juvenile. He still had a single bullet which he was brazenly tossing in 
his hand.
    What he didn't realize is that, as a felon, the possession of 
ammunition violates federal law. After conviction, he was sentenced to 
20 years in federal prison. At sentencing, the judge made clear that 
this long sentence was imposed because he was a career violent 
criminal. The result was widely publicized by Boston Police Department, 
through word of mouth and handbills. This informal but direct publicity 
is important.
    As David Kennedy, a researcher at Harvard's Kennedy School who 
helped craft Operation Ceasefire, wrote, ``gang members do not read 
about three strike laws or armed career criminal statutes in the New 
York Times; if they are to be reached, enforcement agencies must be 
forthcoming about the sanctions and consequences that result from 
criminal behavior and be ready to back these words with action.''
    So, what has worked for Boston is a balanced and comprehensive 
approach--one that uses data collection, information sharing and 
strategic allocation of law enforcement resources. It relies on very 
aggressive law enforcement. Yet, at the same time, we have emphasized 
prevention.
    Indeed, this same collaboration is now working to find jobs for 
those who want an alternative to gangs.
    This effort, known as the Boston Jobs Project, is attempting to 
make youth job ready and then help them actually get a job. It is 
critical to the continued success and momentum we have achieved in 
Boston. If we trust our judgment and believe that we can identify the 
hard core, violent youth and prosecute them to the fullest--then we 
should also be able to identify those who have shown that they are 
willing to pursue an alternative course. This is one way in which we 
can insure that the reduction in violence in Boston is not a temporary 
phenomenon.
    Thank you and I'll be happy to answer any questions you may have at 
this time.
Attachment E

                  Prepared Statement of Helen F. Fahey

                    Project Exile Executive Summary

    For more than a decade the newspaper headlines have read the same: 
Another Murder in the City of Richmond; Murder Rate Rises; Gun Violence 
Continues. It was stark reality that the capital of the Commonwealth of 
Virginia was routinely among the five cities with the worst per capita 
murder rates in the country. In 1997 alone, 140 people were murdered, 
122 of them with firearms. Even while homicide rates were dropping in 
many areas of the country, they were actually increasing in Richmond. 
The use of guns by drug dealers, the willingness of many to flaunt the 
law and carry weapons, and a high incidence of domestic violence, 
fueled this high and ever increasing murder rate.
    In 1997, the U.S. attorney's office for the Eastern District of 
Virginia developed and initiated Project Exile in Richmond, aimed at 
reducing the senseless and unbridled violence which was plaguing the 
city. Project Exile is an aggressive, innovative, and creative approach 
to reducing the murder rate, by changing the culture of violence in 
Richmond through a comprehensive, multi-dimensional strategy. This 
strategy includes both law enforcement and prosecution components aimed 
at deterrence, as well as community outreach and education programs 
focusing on prevention.
    Project Exile is simple and straightforward in its execution, and 
requires relatively limited prosecution and law enforcement resources. 
The program's focus and message is clear, concise, easily understood, 
and most importantly, unequivocal: ``AN ILLEGAL GUN GETS YOU FIVE YEARS 
IN FEDERAL PRISON.'' For criminals carrying guns, the consequences have 
been swift, certain, and severe. For the citizens of Richmond, the 
results have been dramatic. They have taken back their neighborhoods, 
and now live in safer communities where houses can become homes, and 
neighbors can truly become friends.
    The law enforcement and prosecution components of our strategy take 
full advantage of stiffer bond rules and sentencing guidelines 
available in federal court. In every case in Richmond where it is 
appropriate, felons with guns, drug dealers who use or possess 
firearms, and those using guns during domestic violence, are prosecuted 
federally. The project has fully integrated and coordinated local, 
state and federal (BATF/FBI) law enforcement agencies, and local and 
federal prosecutors. This widely-based task force accomplishes prompt 
identification of a potential Project Exile defendant through the use 
of an expedited reporting system, which has decreased processing time 
from several months to several days. In court, bond is routinely and 
successfully opposed, defendants receive speedy trials and mandatory 
minimum sentences are imposed. The average sentence for a Project Exile 
defendant is an impressive 53.6 months. With swift and certain justice, 
the project has deterred violent crime in the City of Richmond by 
changing the culture of violence and criminal behavior.
    As of March 14, 1999, in Richmond;

          1. 438 individuals have been indicted for federal gun 
        violations;
          2. 512 guns have been seized;
          3. 331 persons have been arrested or are in state custody;
          4. 236 arrestees (approx. 74 percent) have been held without 
        bond;
          5. 302 have been convicted;
          6. 215 have been sentenced and the average sentence is 53.6 
        months.

    The other major and essential component of the project addresses 
prevention. Project Exile has been an innovative community outreach and 
education initiative, using various media to get the message to the 
criminals that illegal guns are unacceptable, and will not be 
tolerated. More importantly, it has built a community alliance directed 
at the problem. A coalition of business, community and church leaders, 
and organizations such as the Retail Merchant's Association and the 
Chamber of Commerce, has been assembled to promote the project. The 
coalition, operating as the Project Exile Citizen Support Foundation, 
has funded a creative advertising campaign, including TV and radio 
commercials, billboards, a city bus completely painted black bearing 
the logo ``An Illegal Gun Gets You 5 Years in Federal Prison,'' 15,000+ 
business cards with the same message distributed on the street by local 
police, and a print advertising campaign. This outreach program has 
been extremely successful, increasing citizen reports about guns, and 
energizing the community to support police efforts.
    Through these efforts, hundreds of armed criminals have been 
removed from Richmond's streets. One violent gang, responsible for many 
murders, has been dismantled, its members now in prison. The rate of 
gun carrying by criminals has been significantly reduced, protecting 
not only the public but our police officers as well. Officers now 
report seeing drug dealers throwing down weapons before running from 
police, instead of taking the risk of being caught with a weapon. 
Information obtained from Project Exile defendants has been crucial to 
solving a large number of homicides. Most importantly, these efforts 
appear to be stemming the tide of violence. Homicides in 1998 were 
approximately 33 percent below 1997, for the lowest number since 1987. 
In the same period, armed robberies declined 30 percent. So far in 
1999, homicides are down an additional 9 percent from 1998. As a 
result, the citizens not only feel safer, they are safer.
    Because of the demonstrated results in Richmond, the U.S. 
attorney's office in the Eastern District of Virginia has expanded 
Project Exile to the Tidewater area of Virginia, and is committed to 
continuing Project Exile as long as the need exists. Other cities have 
taken note of Project Exile's impact on the City of Richmond. Project 
Exile's concepts have been fully implemented in Rochester, New York, 
which is already seeing success similar to that in Richmond. Other 
cities, such as Philadelphia, PA, Oakland, CA, Birmingham, AL, Baton 
Rouge LA, and Camden, NJ, are in the process of implementing projects 
based on the Richmond model.
    Project Exile has proven that a comprehensive, multi-dimensional 
strategy can and will work. It can be a vital tool in accomplishing one 
of President Clinton's top priorities--reducing the gun violence on our 
streets.

                             Project Exile

    Project Exile is a comprehensive, multi-dimensional program by the 
United States Attorney's Office, B.A.T.F., U.S. Marshal, and F.B.I., in 
coordination with the Richmond Commonwealth's Attorney's Office, 
Richmond Police Department, the Virginia Attorney General, the Virginia 
State Police, and the business community and citizens of Richmond to 
reduce gun violence and remove armed criminals from Richmond streets. 
The project has made significant strides since it was announced on 
February 28, 1997, but reducing gun violence requires a coordinated 
community response to ensure continued success.
                             1. the problem
    Gun violence has plagued Richmond for the last ten years, with 
Richmond consistently ranking in the top five murder per capita rates 
for the country. Thus, while homicide rates were dropping across the 
country, in Richmond they were actually increasing. In 1997, 140 people 
were murdered, 122 of them with firearms. Ordinary citizens live in 
fear, held hostage in their own homes by the gun violence on the 
streets. The drain on the business community is real and economic 
development opportunities are lost. Business employees are in danger of 
being murdered in robberies. Brave police officers face this danger 
every day. The toll this places on us all is simply incalculable.
    Different causes play a role in the grim statistics. It is a fact 
that criminals in this city are regularly armed and willing to use 
weapons. By 1997, the link between drug dealing and guns had escalated 
to the point that almost every drug dealer was fully armed with high 
powered, readily accessible firearms, and they frequently used guns to 
steal from competitors, deter stealing, and carry out revenge. Even 
without the drug connection, for a variety of reasons, the police 
report a greater willingness of many on the street to carry weapons. 
This obviously contributes to the violence.
    Behind the total statistics is also an important picture. Those 
being killed are not just criminals. In fact, while a large percentage 
of the homicide toll is connected to drugs, there is more to that 
story. In 1998, 80 percent of all homicide victims were African-
American, which places a grievous toll on one particular segment of the 
community. Half of the victims had no prior criminal record, which 
demonstrates that many persons killed were unlikely to have been 
involved in criminal activity leading to the homicide. Finally, the 
average age of homicide victims in 1998 was 28.2 years.
    The city also suffers direct, quantifiable economic losses from 
armed criminal violence. The drain on business development is real. 
Every survey done in the last ten years listed violent crime as a major 
factor slowing Richmond's economic growth. This is all the more serious 
because any long term solution to crime and drugs must be based on 
having sufficient numbers of decent paying jobs. The success of Project 
Exile has helped counteract the negative impact violent crime has had 
on Richmond's public image.
                     2. the response--project exile

                          (a) Law enforcement

    Project Exile is named for the idea that if the police catch a 
criminal in Richmond with a gun, the criminal has forfeited his right 
to remain in the community. The criminal will face immediate federal 
prosecution and stiff mandatory federal prison sentences (often five to 
ten years), and will be ``exiled'' to federal prison.
    The innovative organizational aspects for the investigation/
apprehension/prosecution parts of the project include:

          1. full coordination from the officer on the beat to the 
        federal prosecutor;
          2. full coordination with the local Commonwealth Attorney's 
        Office and the Virginia Attorney General's Office, with each 
        office detailing a staff prosecutor to the U.S. attorney's 
        office to assist in prosecutions;
          3. active coordination of all police agencies (Richmond 
        Police Department, Virginia State Police, Bureau of Alcohol, 
        Tobacco and Firearms, and the Federal Bureau of Investigation), 
        a simplified reporting system; and,
          4. coordinated use of innovative and aggressive policing 
        methods such as traffic checkpoints to locate drugs and guns.

    When a police officer finds a gun during the officer's duties, the 
officer pages an A.T.F. agent (24 hours a day). They review the 
circumstances and determine whether a federal statue applies. If so, 
federal criminal prosecution is initiated.
    To enhance the investigate process, Project Exile has obtained 
increased manpower from two Richmond Police Department officers, and 
two Virginia State Troopers detailed to the FBI and A.T.F. offices.

                            (b) Prosecutions

    The United States Code contains a series of statutes that can be 
used against the armed criminal. In summary, felons, drug users, 
fugitives, illegal aliens, and those convicted of domestic violence are 
prohibited from possessing firearms. Similarly, carrying a firearm in 
connection with drug dealing in violation of 18 U.S.C. Sec. 924(c) 
carries a mandatory five year jail term.\1\
---------------------------------------------------------------------------
    \1\ In addition, this provision was amended in October 1998 to 
broaden its applicability to mere possession of a firearm in 
furtherance of a drug trafficking crime or crime of violence. The 
amendments signed into law also increase the mandatory prison term 
where the weapon is either brandished (7 years), or discharged (10 
years). These amendments will substantially increase the effectiveness 
of the statutory tools available to prosecutors of armed criminals.
---------------------------------------------------------------------------
    Federal prosecution is particularly effective for a number of 
reasons. First, the project entails taking an aggressive position 
against bond, and this approach has been successful in taking 
defendants off the street. The federal bond statutes provide for 
holding a defendant without bond when the defendant poses a danger to 
the community. In this regard, for example, armed drug dealers are 
presumed to be dangerous and bear the burden of justifying release on 
some form of bond. Shifting this burden concerning bond has resulted in 
the vast majority of Exile defendants being held without bond.
    Second, the federal system applies a mandatory sentencing guideline 
system in which a court's sentencing discretion is limited. Therefore, 
for a given type of firearm violation, the penalty is clear, 
substantial, and served in full without parole. Thus, an armed criminal 
is truly ``exiled'' from the community. In plea discussions, the 
federal prosecutor insists in the mandatory minimum sentences for armed 
criminals. If a plea agreement is not reached, the case is tried in 
federal court. In both jury and bench trials, the prosecution has 
prevailed and lengthy prison sentences have been imposed.
    Finally, defendants know that a federal jail term will likely be 
served elsewhere in the country. This has a major impact because 
serving a jail sentence among friends and acquaintances is seen by the 
defendants as much less onerous than serving time in a prison out of 
state. Anecdotally, defendants have expressed more concern about where 
they serve their time than whether they will be going to prison.\2\
---------------------------------------------------------------------------
    \2\ The media outreach effort has been using this concern to 
increase the effectiveness of the project. For example, the July 1998 
copy for the radio traffic report sponsorships addresses the prospect 
of serving a prison term ``way out in the country'' in California, 
Minnesota or Texas. On the street, this is a very effective advertising 
line.
---------------------------------------------------------------------------
    Experience since Project Exile was announced demonstrates that 
federal prosecutors can undertake a large scale prosecution effort of 
gun crimes with relatively limited personnel resources, and with a 
quick disposition of cases. It is estimated that an average of 
approximately three Assistant United States Attorneys and Special 
Assistant United States Attorneys have been utilized on Project Exile, 
including prosecutors detailed at various times from the Richmond 
Commonwealth Attorney's Office, Virginia Attorney General's Office and 
the Department of Justice. As of March 14, 1999,

          a. 438 individuals have been indicted for firearm violations;
          b. 512 guns have been seized in these cases;
          c. 331 have been arrested on the federal charges;
          d. 236 (approx. 74 percent) have been held without bond;
          e. 302 have been convicted;
          f. 215 have been sentenced with an average sentence of 53.6 
        months.

                      (c) Law enforcement training

    To enhance the investigative effort, the U.S. attorney's office has 
conducted several training programs. Specifically, all Richmond police 
officers have twice attended hour long lectures on federal firearm 
statutes and the procedures followed in Project Exile. Beginning in 
March 1998, a more extensive lecture program was conducted with every 
police officer. Training also covered related search and seizure 
issues.
    From June-August, 1998, in connection with the Department of 
Justice, a new Gun Recovery Initiative which included training, 
enforcement, and organizational measures was completed at the Richmond 
Police Department's Police Academy for over 100 selected officers. The 
Gun Recovery Initiative is aimed at improving the ability of the police 
to detect firearm violations and apprehend the perpetrators.
                      3. public outreach/education
    The community must understand that armed criminals are not a 
``police problem''; they are the community's problem. Armed drug 
dealers in particular terrorize parts of our city. Only if the 
community gets involved, and assists, will the homicide and violent 
crime rates be reduced.
    But we cannot stop here. What is needed is greater citizen 
involvement and support. If only one citizen on each block called to 
report an illegal gun, that would double the effect of the police force 
at no cost to the taxpayers, and would go a long way toward making 
their own streets safe. The leaders and organizations which have begun 
this effort have done great work. But continued success will require 
much more outreach and education. Substantial support from the business 
community it necessary to achieve the results we know are possible.

              (a) Project Exile Citizen Support Foundation

    To this end, it was announced in July 1997 that several civic 
leaders and community groups had formed the ``Project Exile Citizen 
Support Foundation'' to support Project Exile with a variety of public 
outreach and education efforts through various media. The Foundation 
was created by Stanley Joynes, Esq., a prominent Richmond attorney who 
has embraced the purposes and goals of Project Exile. Mr. Joynes and 
his law firm, LeClair Ryan, provided free legal work to create the 
support Foundation, registered it as a tax exempt organization, and 
handled the contracting issues for the various media contracts. 
Primarily through Mr. Joynes' contacts, tens of thousands of dollars 
have been raised for the media effort, and thousands more were raised 
in the form of donated media time and support.
(i) Media efforts
    The Foundation has been instrumental in the affirmative use of the 
media carrying the message ``An Illegal Gun Gets You Five Years in 
Federal Prison,'' and asking citizens to anonymously report guns on the 
street to the Metro Richmond Crime Stoppers telephone number. The 
Martin Agency, a prominent national advertising agency located in 
Richmond, provided substantial creative and production assistance at no 
cost to develop ways to get the message out to the community. The 
message has been distributed through 15 billboards, a fully painted 
city bus which covers the entire city by changing routes each day, TV 
commercials, Metro Richmond traffic reports, over a million supermarket 
bags urging support of Project Exile, and 15,000+ business cards with 
the message distributed on the street by local police, and print 
advertising.
    The media outreach effort has substantially reduced street carrying 
rates. In addition, primarily as a result of the citizen outreach 
through the media/advertising effort, more citizens are reporting guns 
on the street, and a large number of gun cases result from citizen 
calls. In the beginning of 1997, that was the exception. There is no 
doubt that the use of aggressive media/advertising has significantly 
increased the deterrent effect of the firearms prosecutions.
    For 1998-1999, because of its demonstrated success, we developed a 
much larger media effort with a six figure budget with different 
creative methods/means and a spot public relations campaign, including 
op/ed pieces and media appearances by law enforcement officials. 
Funding has been provided by corporations, associations, law firms and 
individuals.
           4. richmond public schools/firearm safety programs
    Recognizing the need for a broader program to teach children about 
gun safety, the U.S. attorney's office also attempted to address the 
problem of firearm violence through education in the public schools. As 
part of Project Exile, the U.S. attorney's office, in cooperation with 
the Richmond Public Schools, arranged for a gun safety program, built 
around the cartoon character ``Eddie Eagle,'' be provided to all 
elementary school students (K-5) at no cost.
    The Eddie Eagle Gun Safety Program is an accident prevention 
program for children in pre-school through grade six that teaches 
children what to do if they see a gun in an unsupervised situation. 
Recognized by the National Safety Council, and the American Legion in 
granting its National Education Award, the program has been presented 
to approximately 10 million children nationwide since its inception in 
1988. Beginning March 2, 1998, the 15,600 elementary students in 
Richmond's schools were given instructions that if they discovered or 
confronted a firearm that they were to ``Stop. Don't touch. Leave the 
area. Tell an adult.''. The message, the equivalent of ``don't play 
with matches,'' and similar safety programs, enables children to avoid 
becoming victims. This professional program, developed with teaching 
and law enforcement professionals, includes a fast paced video, fun-
filled activity books, brochures, stickers, posters, and a parent's 
guide to teach a plain, simple safety message. The materials, plus 
training assistance, were provided free of charge by the National Rifle 
Association. The program is scheduled to be repeated for several years. 
In April 1998, the Richmond City Public School Board issued a 
Certificate of Appreciation to the U.S. attorney's office for helping 
to bring this program to the school system. In addition, A.T.F. agents 
are also conducting firearm safety and awareness programs in Richmond 
Public Schools.
                    5. metro richmond crime stoppers
    In many Richmond communities, the armed criminal element has so 
terrorized the citizens that crimes and suspicious activity go 
unreported. The Metro Richmond Crime Stoppers program providers a 
telephone number for citizens to anonymously report criminal activity 
with the possibility of a reward up to $1,000. Project Exile has 
utilized the number, and extensively publicized it, as the most 
efficient method to allow citizens to report armed criminals without 
fear of identification. The staff of the Metro Richmond Crime Stoppers 
will then send the report to the police department for prompt police 
response. In addition, the U.S. attorney's office participates in the 
monthly board meetings and has requested certain drug forfeiture 
proceeds to be used through the police department to enhance its 
operations. The U.S. attorney's office also made a presentation at the 
Virginia Crime Stoppers Association 29th Semi-Annual Training 
Conference on October 16, 1998 at Staunton, Virginia. This is just one 
illustration of how Project Exile is coordinating existing programs to 
maximize the deterrent effect of the prosecutions.
           6. city of richmond's commitment to project exile
    The goal of Project Exile is simply to make Richmond's streets safe 
for all of its citizens. Any Richmonder knows what a great city 
Richmond is to live, work, own and operate a business, raise a family, 
and enjoy all the community has to offer. Unfortunately, the city's 
image has been tarnished with regular stories in the national media 
about the city's high per capita murder rate. Recognizing the potential 
of Project Exile, the City of Richmond government has strongly 
supported the effort in several ways.

                     (a) Richmond Police Department

    Any law enforcement effort directed at homicides on the street 
relies first on the full commitment of the local police force. From its 
inception, Project Exile has been fully supported by Police Chief Jerry 
Oliver, and Deputy Chiefs Theresa Gooch and Fred Russell. The project 
was conceived and developed with their direct input and ideas. Without 
their full support in several aspects, the project could not have been 
successful. First, the Richmond Police Department assigned three 
officers full-time to the Exile task force. This led to quick 
preparation of investigative reports and facilitated information 
exchange.
    Second the Richmond Police Department has organized several 
training programs for all of its officers to educate the officers 
regarding federal laws and involve the officers in the project. August 
1998, the Richmond Police Department completed a week long gun 
interdiction training program for over 100 selected officers to improve 
gun detection on the streets. Each Richmond Police Officer also carries 
a laminated card which summarizes the federal firearm statutes and 
provides a 24 hour pager number if questions on firearms violations 
arise in the field. Finally, every officer in the department has 
received training regarding firearms law three times at roll call 
meetings. A new round of roll call training began in December 1998.
    Third, the department had improved its procedures for the handling 
and tracing of firearms. Through its Firearms Administrator, Mr. John 
Brooks, the Richmond Police Department insures that all firearms are 
traced in coordination with ATF. Mr. Brooks also insures that all 
firearms seizures are considered for inclusion in Project Exile.
    Fourth, the Richmond Police Department has actively participated in 
the public outreach effort. For example, on October 27, 1997, the 
Police Department conducted a ``Crime Prevention Expo'' at which home 
security and safety companies, neighborhood watch organizations, and 
police officials presented information concerning crime prevention and 
protection. Project Exile provided information and the keynote speaker, 
as another means to distribute the anti-armed criminal message of the 
project. The department has actively assisted in Project Exile's 
participation in various community events in order to provide 
additional opportunities to ensure the project's message gets out to 
the community.
    Project Exile is not just a ``federal initiative.'' Rather, Project 
Exile is a true team effort in which the Richmond Police Department 
plays a large and key role. Project Exile could not be successful 
without the full commitment of the Richmond Police Department.
       7. commonwealth of virginia's commitment to project exile
    The Commonwealth of Virginia has supported Project Exile in a 
number of important respects. This support is indicative of the team 
approach taken throughout the project.
(i) Richmond Commonwealth Attorney's Office
    Project Exile has been a cooperative program with the Richmond 
Commonwealth Attorney's Office since the beginning. David Hicks, the 
Commonwealth Attorney, has provided a prosecutor from his office to 
assist in the prosecution of Exile cases.
(ii) Virginia State Police
    Since the beginning of the project, the Virginia State Police have 
been a partner in the effort. The Virginia State Police have assigned 
state troopers to the task force of agents to expedite the preparation 
of investigation reports, and assist in the apprehension of armed 
criminals. The importance of this contribution cannot be overstated.
(iii) Virginia Attorney General
    In October 1998, Virginia Attorney General Mark Earley announced 
that an attorney from the Attorney General's Criminal Division would be 
detailed to serve in the U.S. attorney's office as a full-time 
prosecutor for gun related crimes under Project Exile.
(iv) Virginia Governor
    In 1998, Virginia's Governor, Jim Gilmore, also endorsed and lent 
his support to Project Exile. In particular, in September Gov. Gilmore 
hosted a dinner for many of Richmond's business and political leaders, 
at the governor's mansion to encourage support for Project Exile. 
Support by Richmond's business community has been a critical part of 
the success of the media outreach effort.
              8. metro networks traffic report sponsorship
    In January 1998, Project Exile began a traffic report sponsorship 
campaign on twenty four local radio stations through Metro Networks to 
increase understanding in the community about Project Exile, and send 
out the message that armed criminals will be prosecuted federally and 
removed from our community, that the citizens can help protect their 
own communities by reporting armed criminals through the Metro Richmond 
Crime Stoppers telephone number, and that the project is working. In 
this campaign, each traffic report has a message that the report is 
sponsored by Project Exile, and following the report the announcer gave 
a message explaining the basic premise of the project. Subsequent 
messages provide a phone number which can be used to anonymously report 
armed criminals. This campaign has helped get the message out that 
armed criminals will be prosecuted federally, detained without bond, 
and receive mandatory sentences.
    On April 13, 1998, a new traffic report sponsorship program began 
with the assistance of Metro Networks. The program included 
approximately 125 announcements per week on 24 radio stations which ran 
for one month. An expanded sponsorship program, including funding from 
the Chamber of Commerce, has enabled the program to continue.
                           9. fox-35 support

                      (a) Black Achiever's program

    For the last three years, Fox-35 T.V. News at Ten has sponsored a 
``Black Achievers'' month in which members of the African-American 
community are recognized for their personal efforts to assist in 
community activities and organizations for the betterment of Richmond. 
Project Exile is a sponsor of this program. The U.S. attorney's office 
participated on the selection panel to review nominations for the 
awards. Each person selected was featured in segments on Fox-35 
throughout March 1998, with the Project Exile message given as sponsor 
approximately 190 times. The program presents an excellent means of 
distributing the project's message that the community must assist in 
combating armed criminals, and also stresses that law enforcement is 
not an end in itself but a means by which our community can be 
substantially improved.

           (b) Fox-35 Corporate Invitational Golf Tournament

    Richmond's local Fox Network affiliate, Fox-35, has found great 
value in Project Exile and has done much to promote it, including a 
good deal of free and discounted air time for the outreach television 
spots. On September 1, 1998, Fox-35 held a Corporate Invitational Golf 
Tournament to benefit Project Exile. Through the tournament, 
approximately $100,000 in commercial air time was obtained.
                    10. community pride food stores
    On July 30, 1998, Mr. Johnny Johnson, President/CEO/Owner of the 
Community Pride Food Stores chain announced Community Pride's 
sponsorship of Project Exile. As a corporate citizen serving the needs 
of the communities most directly affected by armed criminal violence, 
Community Pride is well positioned to assist in the outreach effort. 
Community Pride began reaching the community through a series of ads, 
with slogans such as ``Bag A Crook, Support Project Exile,'' placed on 
its grocery bags. It is estimated that these messages reach over 75,000 
customers per week.
                        11. other media coverage
    Experience in Project Exile has demonstrated that getting the 
message out to both the criminals and the community is a continuing 
requirement to ensure success. As part of this effort, Project Exile 
has received various other news media coverage explaining the project 
and its success.

     (a) Richmond Times Dispatch/Richmond Free Press/``Hard Times''

    The Richmond Times Dispatch has played a central role, through its 
coverage of federal court proceedings, in publicizing the project and 
its purposes. The coverage of Project Exile related matters has been 
extensive, balanced, and has informed the public of the project's 
purposes and success. The project would not be the success it has been 
without professional and detailed reporting in the paper.
    Similarly, the Richmond Free Press, a newspaper directed toward the 
African-American community, has provided important coverage of the 
project's success. This coverage is important because the African-
American community has been particularly victimized by armed criminal 
violence. Full page ads were run in early 1999 regarding the project.
    Finally, the Virginia Coalition for the Homeless' bi-weekly 
newspaper ran full page ads in January and February 1999 in support of 
the project. These ads reached many of those most affected by the 
problem of criminal violence.

                           (b) National News

    In July 1998, the Fox Network national news division produced a 
report which aired nationally on July 15, 1998. The report commented 
favorably on the project and its success. As a result, the U.S. 
attorney's office received inquiries from cities around the country 
about the project and whether it could be emulated in their localities. 
Such reports serve to alert other areas to the approach and 
possibilities for dealing with firearm violence.
    As a result of the creative approach taken in Project Exile, CBS 
and ABC have highlighted the program in their broadcasts. The reports 
gave national exposure to the ``good news'' that Richmond's criminal 
violence is being substantially reduced.

                             (c) Local T.V.

    The Unites States Attorney conducted a series of interviews on 
April 9, 1998 with reporters from each of the local T.V. stations to 
discuss Project Exile and its success. These interviews served to 
continue the high public visibility of the project.

                   (d) National print media coverage

    In June 1998, the project began receiving national attention 
through various media including the Washington Post, New York Times, 
the Philadelphia Inquirer, U.S. News and World Report, U.S.A. Today, 
Crime Prevention News, the Wall Street Journal, the Washington Times, 
as a program that is working in dealing with violent crime. As a 
result, the U.S. attorney's office has received numerous inquiries from 
jurisdictions around the country and is providing information to 
replicate the project in those areas.
                 12 national organization endorsements
    The coordinated approach to removing the armed criminal from 
Richmond's streets has received national attention beyond the 
electronic media. National groups crossing the political spectrum have 
reviewed and endorsed the project's approach.
    On March 5, 1998, the U.S. attorney's office received a letter of 
endorsement from Mr. Wayne LaPierre and Ms. Tanya Metaksa on behalf of 
the National Rifle Association, and on March 12, 1998, from Mrs. Sarah 
Brady on behalf of Handgun Control, Inc. As their letters makes clear, 
no matter what one's views are regarding the myriad issues involved in 
the ongoing gun control debate, all parties can agree that vigorous 
prosecution and sentencing of the armed criminal is not only 
appropriate, but also the first step in eliminating this modern 
terrorist from our streets. The NRA has also made substantial donations 
to the Project Exile Citizen Support Foundation.
                              13. success
    Recent academic studies, comparing crime and punishment rates in 
various countries, have made clear that swift, sure, and substantial 
prosecution punishment of violent crime will result in a reduction of 
those crime rates. By any measure, applying this principle, Project 
Exile has been an unqualified success. In a very brief time period, the 
project has removed a large number of criminals predisposed to violence 
from the streets of Richmond. The project has also demonstrated 
substantial reductions in gun carrying by criminals. In Richmond, the 
homicide rate has been significantly reduced. While many factors have 
contributed to the reduction, there is no doubt that project Exile has 
been a major factor. Homicides in 1998 were down 33 percent from 1997 
and for 1999 through 18 March, homicides are down 97 percent from the 
same date in 1998. The homicide rate in 1998 was the lowest in the city 
since 1987.
    Any one of numerous anecdotes tells the story as well:

          1. In the Spring 1998, in the execution of a search warrant, 
        a defendant was caught with substantial quantities of drugs. 
        What was unique was that no guns were found in the search. This 
        was the first time anyone could remember a defendant with so 
        much narcotics not being armed. The defendant was questioned 
        extensively about where the guns were, with the defendant 
        vehemently denying having any guns. Finally, somewhat 
        exasperated, the defendant looked at the prosecutor and said 
        ``Haven't you heard man? Five years.'' It was clear that the 
        advertising message, ``An illegal gun gets you five years in 
        federal prison'', had gotten through to its primary target 
        audience.
          2. In another case, again in an interrogation, a drug/gun 
        defendant patiently explained how he understood the ``feds'' 
        had a special T.V. channel going into the projects to spread 
        the message that the feds were cracking down on guns. He was 
        referring to the T.V. commercials run at the end of 1997 on 
        Fox-35 and several cable channels. He got the message even 
        while overestimating the degree of the advertising.
          3. In a recent case concerning the sentencing of a defendant, 
        the defendant wrote to the U.S. attorney complaining that the 
        sentence he would be getting under the federal sentencing 
        guidelines was too harsh in that it was based in part on his 
        juvenile convictions. It was clear he had seen the outreach 
        media message because he wrote in his letter,

          I'm writing to you in reference to my Presentence 
        Investigation Report. My charge is possession of a firearm by a 
        convicted felon. My sentence guideline is 77-96 months. In 
        reaching my sentence guideline, the probation officer used 3 
        charges from my juvenile record on page 4 of my Presentence 
        Investigation. * * * in all do respect, I think going back to 
        my juvenile record is a little too much. Even the bus and the 
        billboard says five years. * * * (emphasis added)

          4. In April 1998, a probation officer advised the United 
        States Attorney's Office that he had been talking with a 
        supervised defendant who had been engaged in drug dealing for 
        many years. The defendant gestured to a poster on the wall with 
        the Exile campaign message (``An Illegal Gun Gets You Five 
        Years In Federal Prison'') and said ``you got that right''. He 
        explained to the probation officer that the word on the street 
        now is that if you sell drugs, then ``sell drugs but don't be 
        carrying no gun''. He said the message had gotten to the 
        criminal element. Breaking the gun/drug link is the single most 
        important factor in reducing street violence and murders.
          5. In June 1998, a plainclothes detective reported stopping 
        three individuals on the street who met the radioed description 
        of three individuals wanted for a recent crime. The detective 
        detained the three and did a safety patdown for weapons. He 
        asked one of the three of he had any weapons. The person 
        responded, ``Are you crazy. That Exile thing will put you away 
        for five years. I'd be an old man when I got out.'' None of the 
        individuals were in fact carrying firearms.

    The criminal element is clearly getting the message.
                           14. future efforts

         (a) Commitment to the comprehensive effort in Richmond

    Recent statistics show that the U.S. attorney's office for the 
Eastern District of Virginia now ranks second among federal districts 
in prosecuting federal firearm violations. The U.S. attorney is proud 
of this long term commitment to addressing the problem of violent crime 
in the District and intends to continue the Office's focus on armed 
criminals.
    Because success requires a sustained commitment, the federal and 
local authorities have pledged to continue the program as long as the 
need exists. Additional manpower has been assigned by the Richmond 
Police Department and the Virginia State Police, along with additional 
FBI and ATF resources requested by Deputy Attorney General Eric Holder. 
Richmond Commonwealth's Attorney, David Hicks, has detailed an 
experienced prosecutor to the U.S. attorney's office from the beginning 
of Project Exile to assist with the trial workload of the project, and 
in October, 1998, the Virginia Attorney General also detailed an 
attorney to the Richmond U.S. attorney's office through October 1999 to 
assist on trials. In addition, the Department of Justice, thru Deputy 
Attorney General Eric Holder, a strong supporter of Project Exile, has 
detailed attorneys on a temporary basis to assist with Project Exile 
cases.

             (b) Expansion of Project Exile to other areas

    In January 1998, the U.S. attorney's office announced the expansion 
of the project to the Norfolk area. Certain areas in the Tidewater area 
also have high homicide rates, and it is expected that significant 
reductions can be achieved there as well. Since Project Exile began in 
the Tidewater area, 112 indictments have been brought, 43 individuals 
have been convicted and the average sentence is 64.4 months. To date, 
279 guns have been seized.

                               Conclusion

    t is not an exaggeration to say that armed criminals can and do 
terrorize our cities. Senseless violence tears at the very fiber of our 
community, and we cannot allow that to continue. We must deal with 
these criminals swiftly and firmly, so that our citizens can return to 
a level of normalcy, where decent, law abiding people can live, work, 
and most importantly raise this nation's next generation of young 
adults.
    However, federal prosecutions alone cannot put an end to the 
tragedy of violence in our cites. A sustained and comprehensive 
community effort is critical to our ultimate success. With the 
leadership of community-based organizations, such as those mentioned 
above, and with the support of those living in the community, we can 
overcome both the cause and the effect of the unbridled and 
unprecedented violence we have all seen.
    While Project Exile is only part of the solution, it can send and 
enforce a very important message to the criminal element; an illegal 
gun will get you five years in federal prison.
    This is a proven strategy, and it is making a difference.
    [GRAPHIC] [TIFF OMITTED] T9738.005
    
    [GRAPHIC] [TIFF OMITTED] T9738.006
    
    [GRAPHIC] [TIFF OMITTED] T9738.007
    
    [GRAPHIC] [TIFF OMITTED] T9738.008
    
    Senator Sessions. Thank you very much, and thank you for 
your leadership. I was going to ask--and I think it is 
correct--that this wouldn't be the only cause of that decline. 
But I think it is fair to say you believe it is a measurable 
factor in the decline in----
    Ms. Fahey. I think it has been a very significant factor. 
But I would also like to say--and to some extent this is in 
response to your comments earlier about perhaps neglecting 
other kinds of cases. With a very small staff in the Richmond 
office, we have prosecuted a large number of multi-defendant 
violent drug gangs and done a number of death penalty cases as 
well as a public corruption case, a major fraud case in the 
past year, year and a half. So I think that both can be done. 
They are not mutually exclusive.
    Senator Sessions. I would say those in combination are 
clearly the most effective things to reduce crime: prosecuting 
violent drug gangs and gun cases.
    Chief Oliver.

                  STATEMENT OF JERRY A. OLIVER

    Chief Oliver. Good afternoon. My name is Jerry Oliver, and 
I am proud to be the police chief in the city of Richmond, VA. 
As the fourth person to present this afternoon, I can assure 
you that some of my comments will be somewhat redundant, at 
least from my perspective.
    Accompanying me this afternoon, if I may, I would like to 
introduce Detective Sergeant C.T. Woody from our community 
intelligence team; Sergeant Mike Shamus and Officer John Hannah 
who are both uniformed members of the Richmond Police 
Department rapid mobilization team, and who are the street-
level people that actually get this Project Exile that we are 
talking about done. So I asked them to come along for their 
perspective at the street level.
    Conceived from a partnership developed in 1996, Project 
Exile is the byproduct of what I consider to be a very strong 
and effective relationship between the Richmond Police 
Department and the Office of the U.S. attorney for the Eastern 
District of Virginia, the Honorable Helen Fahey. It is the 
result of a desire to explore confrontive and aggressive and 
innovative alternative strategies to address the difficult and 
sometimes intractable urban problems of guns, drugs, thugs, and 
street violence.
    When I arrived in May of 1995 to become police chief in 
Virginia's capital city, Richmond was reeling from an ever 
increasing level of violent crimes from the previous year of 
1994. During that year, a record of 160 persons were viciously 
murdered and a total of 3,594 violent crimes were reported in 
the city.
    Richmond is a city of just over 200,000 people, and like so 
many other American cities and metropolitan areas, much of 
Richmond's crime problem stemmed primarily from the trafficking 
of illegal substances, particularly crack cocaine, and the 
violent competitive behavior associated with this commerce. 
Guns, drugs, and thugs went hand in hand in many of our 
neighborhoods and on our street corners. Richmond was widely 
known as an area with a very high ``carry rate'' for guns, a 
problem that was recognized by the U.S. attorney.
    In 1996, Helen Fahey, U.S. attorney for the Eastern 
District, joined me in developing this approach we now know as 
Project Exile. Through the tireless efforts and total 
commitment of what I consider to be a brilliant prosecutor and 
true community leader, Jim Comey, James B. Comey, Deputy 
Assistant U.S. attorney for the Richmond area, and David 
Schiller, Assistant U.S. attorney and chief Federal prosecutor 
for Project Exile, we carefully and deliberately crafted a 
program to aggressively target and prosecute those criminals 
who use firearms, particularly handguns, to threaten our 
neighborhoods and diminish the excellent quality of life in 
Richmond.
    From the project's inception, the Bureau of Alcohol, 
Tobacco and Firearms was brought on board, as the sponsoring 
agency, to become the key third member of our new team. Agents 
from the local office are assigned, as part of the Project 
Exile Task Force, to aid our officers in their investigations 
at the street level and to adopt cases that meet certain 
criteria for prosecution within the Federal courts under 18 
U.S. Code 922 and 924. Such criteria include gun possession 
while possessing drugs; gun possession by a convicted felon; 
gun possession if a person is a fugitive from another State; 
gun possession if under a felony indictment; gun possession if 
a person is the subject of a restraining order; gun possession 
by a drug user; gun possession if a person has been involved in 
prior domestic violence; or gun possession if the gun is known 
(by the possessor) to be stolen.
    A ``typical'' Project Exile case would involve an officer 
who might be assigned to a precinct beat car or to any other 
uniformed or plainclothes units of our agency, like these 
gentlemen that accompanied me today, encountering or arresting 
an individual who has used or is in possession of a firearm. If 
during the course of that investigation or that incident it is 
learned that a person meets any of the previously listed 
criteria, the case is referred to the Project Exile Task Force 
for review and possible adoption. Additional State charges may 
or may not be placed against this person at this time, 
depending upon the circumstances of the encounter.
    This prosecutorial strategy offers three advantages over 
existing State statutes: one, stiffer sentencing guidelines for 
those using firearms in the commission of drug offenses or 
crimes of violence; two, a rebuttable presumption of bail, that 
is, a ``no bail'' provision prior to an offender's first 
appearance in court; and, three, the likelihood of service a 
number of years in prison far, far away from home, from their 
associates, and from their criminal support networks in the 
community.
    Other agencies soon joined our efforts. The Honorable Mark 
L. Earley, Attorney General for the Commonwealth of Virginia, 
assigned members of his staff to provide assistance. Our local 
Commonwealth's Attorney, David Hicks, has assigned a full-time 
prosecutor to this effort. Other law enforcement agencies, such 
as the Virginia State Police and the Federal Bureau of 
Investigation, quickly offered their support as well.
    The Project Exile Task Force is now staffed by Federal, 
State, and local law enforcement officers, along with Federal 
and State prosecutors. The Richmond Police Department has 
assigned three officers specifically to help facilitate the 
prosecution of these cases and has a staff member dedicated to 
the tracking and researching of all firearms seized by the 
Richmond Police Department. This effort, which was talked about 
and described earlier, also is supported by the Alcohol, 
Tobacco and Firearms National Tracing Center.
    There has been a list given to you earlier about the 
successes, but just quickly, by 1997, successes were being 
realized, and in a period of 4 months--February to May--92 
persons were indicted for firearms-related crimes. Over half of 
these were held without bond for trial. Fifty-five persons have 
been convicted and sentenced to terms in Federal facilities. 
Project Exile strategies, in conjunction with our department's 
Residential Intensive Patrol and other RIP activities, ``Street 
Heat'' and similar enforcement activities, have been aggressive 
and have led to the success that you have heard described here 
today.
    Just a real quick word about advertising. We have many 
partners that have not been talked about here today, and those 
are the community people that help raise the funds to produce 
the marketing element that we have talked about here with the 
cards and with the billboards and the buses. The Martin Agency, 
the Chamber of Commerce, the Greater Richmond Partnership, the 
law firm of LeClair Ryan, and other small mom-and-pop type 
businesses have come forward with money to help in this 
pursuit.
    All of this, Senator, has led to the success of Project 
Exile in Richmond, and I thank you for the opportunity to be 
here to describe the success.
    [The prepared statement of Chief Oliver follows:]

                 Prepared Statement of Jerry A. Oliver

    Colonel Jerry A. Oliver, accompanied by Sergeant Michael J. Shamus 
and Officer John P. Hannah, both uniformed members of the Richmond 
Police Department involved in a number of Project Exile cases.
    Conceived from a partnership developed in 1996, Project Exile is 
the brainchild of the Richmond Police Department and the United States 
Attorney for the Eastern District of Virginia. It is the product of a 
desire to explore innovative, alternative strategies to address the 
difficult urban problem of guns, drugs, and violent crime.
    When I arrived in May of 1995 to become police chief, Richmond was 
reeling from intolerable levels of violent crime the previous year 
(1994). During that year, a record 160 persons were murdered and a 
total of 3,594 violent crimes were reported. This in a city of just 
over 200,000 people. Like so many other cities and metropolitan areas 
in our country, much of Richmond's crime problem stemmed from the 
trafficking of illegal substances, particularly crack cocaine, and the 
violent competitive behavior associated with this commerce. Guns and 
drugs went hand in hand in many of our neighborhoods and on our street 
corners. Richmond was widely known as an area with a very high ``carry 
rate'' for guns, a problem that was recognized by the U.S. attorney.
    In 1996, Helen F. Fahey, United States Attorney for the Eastern 
District of Virginia, joined me in developing this new approach we now 
know as Project Exile. Through the tireless efforts and total 
commitment of James B. Comey, Deputy Assistant United States Attorney 
for the Richmond area, and David Schiller, Assistant United States 
Attorney and chief federal prosecutor for Project Exile, we crafted a 
program to aggressively target, and prosecute, those criminals who use 
firearms to threaten our neighborhoods and diminish the excellent 
quality of life in Richmond.
    From the project's inception, the Bureau of Alcohol, Tobacco and 
Firearms (BATF) was brought on board, as the sponsoring federal agency, 
to become the third member of this new team. Agents from the local 
office are assigned, as part of the Project Exile Task Force, to aid 
our officers in their investigations and to ``adopt'' cases that meet 
certain criteria for prosecution within the federal courts system under 
18 United States Code 922 and 924. Such criteria include gun possession 
while possessing drugs; gun possession by a convicted felon; gun 
possession if a person is a fugitive from another state; gun possession 
of under a felony indictment; gun possession if a person is the subject 
of a restraining order; gun possession by a drug user; gun possession 
if a person has been involved in prior domestic violence; or gun 
possession if the gun is known (by the possessor) to be stolen.
    A ``typical'' Project Exile case would involve an officer, who 
might be assigned to a precinct beat car or to any other uniformed or 
plain clothes unit of our agency, encountering or arresting an 
individual who has used, or is in possession of, a firearm. If, during 
the course of the investigation of that incident, it is learned that 
the person meets any of the previously listed criteria, the case is 
referred to the Project Exile Task Force for review and possible 
adoption. State charges may or may not be placed against the person at 
that time, depending upon the circumstances of the encounter.
    This new prosecutorial strategy offers three advantages over 
existing state statutes:

  (1) stiffer sentencing guidelines for those using firearms in the 
        commission of drug offenses or crimes of violence.
  (2) a ``no bail'' provision prior to an offender's first court 
        appearance, and
  (3) the likelihood of serving a number of years in a prison far from 
        home and associates.

    Other agencies soon joined our efforts. The Honorable Mark L. 
Earley, Attorney General for The Commonwealth of Virginia, assigned 
members of his staff to provide assistance. Our local Commonwealth's 
Attorney, David Hicks, has assigned a full time prosecutor. Other law 
enforcement agencies, such as the Virginia State Police and the Federal 
Bureau of Investigation, quickly offered support. The Project Exile 
Task Force is now staffed by federal, state, and local law enforcement 
officers, along with federal and state prosecutors. The Richmond Police 
Department has assigned three officers to help facilitate the 
prosecution of these cases and has a staff member dedicated to the 
tracking and researching of all firearms seized by the Richmond Police 
Department. These efforts are also supported by the BATF National 
Tracing Center.
    By early 1997, successes were realized in a period of 4 months 
(February-May), 92 persons were indicted for firearms related crimes. 
Over half of these were held without bond for trial, and 55 persons had 
been convicted and sentenced to terms in federal facilities. Project 
Exile strategies, in conjunction with our Department's Residential 
Intensive Patrol (RIP) initiatives such as ``Street Heat'' and similar 
enforcement efforts, soon produced results. Aggressive prosecution by 
our Commonwealth's Attorney brought an end to the violence by 
neighborhood-based drug groups known as the ``Poison Clan'' and the 
``Dogg Pound''. Richmond's City Manager, along with City Council and 
its Public Safety Committee, were instrumental in helping to devise, 
and support, not only policing strategies, but a number of initiatives 
across the spectrum of City government services.
    Word began to spread quickly, and not just ``on the street''. With 
the leadership of Dave Schiller, assistant U.S. attorney, and Stan 
Joynes, a prominent attorney, we launched an ambitious campaign to 
market our new efforts, and educate the law-abiding public and criminal 
element, through the support of corporate and private sector partners 
such as:

          Greater Richmond Retail Merchants' Association,
          The Martin Agency,
          Chamber of Commerce--Greater Richmond,
          Greater Richmond Partnership,
          The law firm of LeClair Ryan,
          National Rifle Association, and many other businesses and 
        individuals.

    We have purchased advertising time and space. We run public service 
announcements on radio and television. We advertise in the print media. 
One bus, owned by the Greater Richmond Transit Company, is painted 
black with the message, ``An illegal gun gets you 5 years in Federal 
Prison'' in large white letters, accompanied by the telephone number of 
our 24-hour hotline. The transit company rotates that bus among all 
City routes in order to expose all of Richmond's communities to the 
message that firearm violence in Richmond will not be tolerated. 
Fifteen billboards, carrying the same message and number, can be found 
around the metropolitan area warning those criminal minds of the 
consequences of using a gun in the furtherance of their violent acts. 
We have also distributed thousands of business cards with the same 
message and color scheme.
    Has it worked? As previously mentioned, there were 160 murders and 
3,594 violent crimes committed in Richmond in 1994. That murder figure 
gave Richmond one of the highest per capita homicide rates in the 
United States. The numbers in each of these categories have decreased, 
down to 94 murders (-41 percent) and 2,804 violent crimes (-22 percent) 
in 1998. The first Project Exile indictment was prosecuted in early 
1997. Through March of 1999, in just two years, there have been 438 
people indicted under Project Exile guidelines. Seventy-four percent of 
these were detained without bond. To date there have been 228 
defendants sentenced, with the average offender being ``exiled'' to 
53.8 months (4\1/2\ years). Perhaps of even more critical importance is 
that fact that these indictments also resulted in the removal of 512 
guns from the streets of Richmond and out of the hands of street thugs. 
Our officers have observed, supported by citizen accounts, that fewer 
drug dealers and users are being found carrying firearms. Thus, we are 
realizing a reduction in the previously high ``carry rate'' mentioned 
earlier. Consequently, gun violence has been reduced.
    Our efforts through Project Exile have garnered regional and 
national recognition. Other law enforcement agencies in Virginia now 
pursue similar avenues of prosecution. Cities such as Rochester, NY; 
Birmingham, AL; Camden, NJ; Philadelphia, PA; Oakland, CA; and Baton 
Rouge, LA are implementing similar programs in their communities 
modeled after that in Richmond.
    We, in the Richmond Police Department, view Project Exile as one of 
our greatest success stories of the past few years. It has truly been a 
highlight among partnerships that the Richmond Police Department has 
forged with other agencies and members of the community.
    Project Exile has provided an avenue of prosecution for firearms 
related crimes not previously available under our state system. 
However, the Virginia General Assembly, in the recently adjourned 1999 
session, passed legislation being referred to as ``Virginia Exile''. 
These new laws closely mirror the sanctions and procedures found in 18 
USC 922 and 924, and will provide other Virginia localities with 
similarly aggressive policing tools to combat gun violence in their 
communities. Our state legislators had only to examine the success of 
Project Exile in their capital city to anticipate the positive effect 
this new legislation would have throughout The Commonwealth. We 
anticipate working closely with our state and local prosecutors in 
pursuing aggressive prosecution in state courts, while building on our 
successful partnership with the United States Attorney and other 
members of the Project Exile team.

    Senator Sessions. Thank you very much for your leadership. 
It just seems to me the two of you are telling a story of a 
community that was concerned about its crime rate, got 
together, developed a plan that worked for you, and set about 
to execute it using your common sense and good judgment and 
experience as law officers. And I really salute you for it.
    Mr. Timoney.

                  STATEMENT OF JOHN F. TIMONEY

    Mr. Timoney. Good afternoon, Mr. Chairman. I have submitted 
this formally. There is no sense going through that, so I will 
just hit some of the highlights and then spend about a minute 
going over four maps that I brought with me.
    I am John Timoney, the police commissioner of Philadelphia. 
I was hired a little over a year ago by Mayor Rendell, after 
having spent 29 years in the New York City Police Department. I 
retired there with Commissioner Bratton in 1996 as the number 
two person in that organization, and the two intervening years 
I spent as a consultant and adviser to governments and police 
departments all over the world.
    I am greatly honored to have been invited to speak to you 
today regarding gun violence. It is an issue that has been of 
deep concern to me throughout my police career.
    Gun violence is a critical issue in our Nation today, and 
in Philadelphia, it has reached a crisis stage. Let me just 
share some quick statistics with you, and I think you will get 
the point that they are quite chilling.
    Every year 1989 through 1997, the city of Philadelphia has 
suffered at least 400 homicides. In each of the last 4 years, 
guns have accounted for more than 80 percent of the homicides, 
usually around 80, 82, or 84 percent. In addition more than 
one-third of all aggravated assaults and more than one-half of 
all robberies in Philadelphia last year involved the use of 
guns.
    More terrifying still is the effect of guns on children. In 
10 percent of all Philadelphia gun homicides over the last 
several years, a juvenile under the age of 18 was the trigger 
man. Homicide is now the leading cause of death among youths 
aged 16 to 21 in Philadelphia, and death by firearms has risen 
102 percent in Philadelphia from 1985 to 1995.
    Philadelphia police officers have been making heroic 
efforts to stop gun violence. I am very proud of their 
performance. They make approximately 4,000 gun arrests each 
year. Unfortunately, however, the average sentence for a gun 
conviction in Philadelphia is between 3 and 6 months.
    With these grim statistics in mind, Mayor Ed Rendell and 
U.S. Attorney Michael Stiles announced the implementation of 
Operation Cease-Fire in January of this year. Operation Cease-
Fire is modeled on the success on Project Exile which has 
dramatically reduced gun violence in Richmond by prosecuting 
gun possession cases federally.
    Let me just speak quickly. In Philadelphia, out of the 
4,000 gun arrests, we estimate about 1,200 would be eligible 
for Federal prosecution. Presently, under the new Project 
Cease-Fire, about 200 will be, so there is lots of room for 
improvement.
    There is a debate going on in the United States today 
regarding the role of the Federal Government and there is an 
allegation afoot that somehow we are federalizing far too many 
crimes. Well, in the area of narcotics and guns, as Senator 
Specter said earlier, there has always been Federal 
involvement. We just think there is a need for the Federal 
Government to get involved, and in Philadelphia an even greater 
need.
    We have a tendency to think of gun violence as episodic, 
isolated incidents. Let me just show you quickly four maps that 
we used in our COMPSTAT process. Our COMPSTAT process is where 
we have our weekly meetings with our commanders every Thursday 
for 4 hours, and we go over crimes, and in this case we are 
talking about gun violence.
    The first one involves the Elias Pagan drug organization, 
and here you will see it is in different parts of the city of 
Philadelphia, different neighborhoods, but it involves 
basically about five guns involved in 14 shootings, resulting 
in six homicides. Arrests have been made, prosecutions have 
been effectuated, but the five guns have not been recovered 
yet. That is the drug organization. If you would flip over--I 
should have brought my glasses.
    Would you read that title to me, young man, on that one? 
What is that one?
    Staff. This is firearms and casing links for the city of 
Philadelphia.
    Mr. Timoney. The new IBIS system, which we implemented a 
little over a year ago, of course, about $300,000, has analyzed 
about 6,000 pieces of evidence. We have gotten cold hits on 122 
cases, cold hits in 61 cases. They are in different parts of 
Philadelphia.
    Would you just flip over one more?
    Senator Session. What do you mean ``cold hits''?
    Mr. Timoney. On these homicide cases, we had absolutely no 
leads whatsoever, no informants, and as a result of the IBIS, 
the Integrated Ballistics Identification System, testing the 
bullets or the shells, we were able to come up with hits on 
122----
    Senator Sessions. Now, is that the ATF or the FBI program?
    Mr. Timoney. That is an ATF program, and we got that--I 
wish you would ask me----
    Senator Sessions. Do you want to testify which is best?
    Mr. Timoney. You can ask me that question later on. It is a 
very important question.
    Here, sir, again, the Federal role of law enforcement, you 
can see there was a series of four shootings by a young man. 
Three of them happened in Philadelphia. The fourth one was a 
homicide in Camden, NJ, across the river. This young man was 
arrested three times in the fall of 1997 by the Camden Police 
Department. All three times he was armed and there were 
narcotics charges, and yet he was still out. The third time he 
killed somebody. They locked him up again. They recovered four 
guns in the three arrests. All the serial numbers had been 
obliterated. They were sent down to ATF in Maryland, who then 
have surfaced the numbers on two of the guns. The guns were 
then sent up to Philadelphia, and through the IBIS system, we 
wound up getting three hits off two of those guns.
    One more. The last chart----
    Senator Sessions. One more point I would make. If that 
youngster moved across State lines and was arrested in 
Philadelphia, you have no record in NCIC of his prior juvenile 
arrest, which is something we are trying to change in our 
juvenile crime law.
    Mr. Timoney. Well, interestingly enough, that one is the--
this is an interesting one. This is the Franklin and Jefferson 
organization. It is interesting in that it involves just two 
guns involved in seven incidents where the gun was used. Five 
people were shot. There were two homicides. But the real 
interesting part, it wasn't just one drug organization. 
Remember what I said about youth in Philadelphia? We wound up 
arresting five people--a 17-year-old, an 18-year-old, a 19-
year-old, and a 20-year-old--and this drug organization, five 
shootings and two additional homicides. You can see they are in 
different neighborhoods.
    Senator Sessions. With the same gun?
    Mr. Timoney. With the same two guns, a Baretta .9mm and 
then a regular automatic .9mm.
    Using maps like this, we are doing two things, and we are 
going to do a third thing in Philadelphia. The two things we 
are doing--I mentioned the COMPSTAT process. The COMPSTAT 
process is where I bring in the commanders every Thursday 
morning for 4 hours, and using a variety of crime maps, we hold 
the commanders accountable: What are you doing in the area? 
What kind of initiatives have you undertaken?
    We have now taken--when we look at the maps in COMPSTAT, we 
see that the crime stops at the Philadelphia border. Aha. We 
are now met with the chiefs of the four surrounding counties 
because we recognize that the criminals don't recognize the 
boundaries. So now we are developing for the first time in the 
United States a regional COMPSTAT involving not just 
Philadelphia but the surrounding four counties of Philadelphia.
    In the area of gun violence, we are now looking--I am 
proposing with Mr. Stiles and some of our friends in the 
Federal Government to come up with what I call--we have 
COMPSTAT. We are going to come up with FEDSTAT. We are going to 
bring in the Federal Government, ATF, FBI, DEA, Customs, INS, 
and the Philadelphia Police Department around the table at 
least once a month or once every 2 months, whatever it is, 
mapping out the gun crimes and then questioning our 
investigators: What are they doing about it? It will be a 
revolving Chair so it won't be just the Philadelphia Police 
Department. The FBI will chair it one time. That is the new 
level we are trying to take this whole COMPSTAT process, this 
mapping process.
    Senator Sessions. Unfortunately, we need to move on. But if 
you will wrap it, we will come back for----
    Mr. Timoney. That is it. That is my testimony, sir.
    [The prepared statement of Mr. Timoney follows:]

                 Prepared Statement of John F. Timoney

    Good afternoon. I am John Timoney, Police Commissioner for the City 
of Philadelphia. Prior to being hired by Mayor Edward Rendell just over 
a year ago, I served for nearly 30 years in the New York City Police 
Department, retiring from the NYPD as the First Deputy Commissioner to 
Police Commissioner William Bratton. I also spent about two years as a 
consultant advising police departments in this country and abroad about 
how to make themselves more effective and more efficient.
    I am greatly honored to have been invited to speak to you today 
about gun violence. It is an issue that has been of deep concern to me 
throughout my police career.
    Gun violence is a critical issue in our nation. In Philadelphia, it 
has reached a crisis stage. Let me quote some statistics to you. I 
think that you will agree that they are chilling. Every year from 1989 
through 1997, the City of Philadelphia has suffered at least 400 
homicides. In each of the last four years, guns have accounted for more 
than 80 percent of these homicides. In addition, more than one third of 
all aggravated assaults and more than one half of all robberies in 
Philadelphia last year involved the use of guns.
    More terrifying still is the effect of guns on children. In 10 
percent of all Philadelphia gun homicides over the last several years, 
a juvenile under the age of 18 was the trigger-man. Homicide is now the 
leading cause of death among youths aged 16 to 21 in Philadelphia. 
Death by firearms has risen 102 percent in Philadelphia from 1985 to 
1995.
    Philadelphia police officers have been making heroic efforts to 
stop the gun violence. I am very proud of their performance. They make 
approximately 4,000 gun arrests each year. Unfortunately, however, the 
average sentence for a gun conviction in Philadelphia is only 3 to 6 
months.
    With these grim statistics in mind, Mayor Edward Rendell and US 
Attorney Michael Stiles announced the implementation of Operation 
Cease-Fire in January 1999. Operation Cease-Fire is modeled on the 
success of Project Exile which has dramatically reduced gun violence in 
Richmond, Virginia by prosecuting gun possession cases federally.
    In Operation Cease-Fire, Michael Stiles, the US Attorney for the 
Eastern District of Pennsylvania, has committed to prosecuting at least 
200 gun possession cases federally this year. We intend to create a 
fear in criminals of hard time for illegal handgun possession. The 
Federal Fact Book published by US Department of Justice reports that 
the average national sentence for violation of federal gun laws is 77 
months. This stands in stark contrast to the 3 to 6 month sentence now 
received in Philadelphia's state courts. Other benefits to federal 
prosecution are that federal laws require criminals to serve 85 percent 
of their sentence and stringent federal bond requirements keep gun 
violators off the streets while awaiting trial. This is very important. 
Experience has shown that too many defendants prey on others while 
awaiting trial.
    In the two months that Operation Cease-Fire has been in effect, a 
total of 79 cases have been accepted for federal prosecution. Not all 
of these cases will need to be prosecuted federally. A number of the 
cases accepted for federal prosecution will be given the opportunity to 
plead guilty in the state system and accept a serious state prison 
term. If the defendant declines, the case will then be prosecuted 
federally with the potential for more severe federal penalties. 
Operation Cease-Fire has just begun and it is off to a good start. But 
it is only a start. I hope that additional resources will become 
available so that it can be expanded. Two hundred federal prosecutions, 
while significant, account for only a small percentage of the 4,000 gun 
arrests made by the Philadelphia Police Department each year.
    It is important and appropriate that the federal government plays a 
role in the fight against gun violence. It is well recognized that 
there is an unmistakable interstate nature to gun trafficking and gun 
violence. Gun supply cannot be controlled in an individual state solely 
by legislation in that state. We know that so-called strawman 
purchasers in a state with lenient gun laws buy guns in bulk and resell 
them to people who cannot buy guns easily in their own state because of 
their's strict gun laws. States with lenient gun purchase laws thus 
become the source for illegal guns used in states that have tried to 
limit guns through strong legislation.
    Crime and criminals know no geographical/political boundaries. As 
the maps prepared by my Department show, an individual gun is often 
used to commit crimes of violence in many different places.
    As gun violence has serious interstate implications, we must 
develop interstate strategies to tackle it. This means that federal and 
state law enforcement authorities must work closely together in this 
area. In New York City, for example, the cornerstone of our crime 
fighting strategy was the COMPSTAT process. COMPSTAT is a police 
strategy that uses computerized crime statistics and crime maps to 
predict crime, allocate resources and target individuals and gangs 
responsible for crime. Every week, precinct commanders meet with the 
top brass of the Police Department to review crime trends and 
strategies in the commanders' individual jurisdictions. As I am sure 
you know, this process has proved extraordinarily successful in 
tackling crime in the country's most densely populated city. It is also 
working effectively in Philadelphia. I have no doubt that it will work 
also to fight crime in a national level.
    I say this with confidence because in Philadelphia we have recently 
begun to extend the COMPSTAT process beyond the City limits to the 
surrounding counties. Our aim is to share crime information and 
intelligence to target those criminals who operate across county lines.
    I have recently recommended that we use this same approach to 
combine federal and local law enforcement efforts on gun violence. I 
propose that a joint team of federal, local and Philadelphia police 
investigators take an active role in following up the cases accepted 
for federal prosecution under Operation Cease-Fire. Using the stiff 
potential federal sentence to encourage defendants to cooperate, these 
officers will build federal and state conspiracy cases against targeted 
drug gangs.
    Every time a gun case is accepted for federal prosecution, this 
Investigative Team will review the case and, if deemed appropriate, 
offer the defendant an opportunity to cooperate. If the defendant has 
information about a narcotics operation or gang, he may wish to share 
this with us in return for receiving ``downward consideration'' at 
sentencing. I believe that those who are aware of the severe federal 
jail sentences for gun possession will find this offer very attractive. 
Of course, even with this cooperation, defendants will still serve more 
time federally than they would in the state system. Using the 
information gained from the debriefings, the investigative teams will 
target gangs responsible for narcotics distribution and violence. 
Follow-up investigations and undercover work will focus on building 
criminal conspiracy cases.
    A regular COMPSTAT meeting will be held at which the Investigative 
Team leaders meet and present their strategies. Representatives of the 
Police Department, FBI, DEA, ATF, US Attorney's Office, and various 
state agencies will participate in these strategic meetings. The 
location of various gangs and criminal operations will be discussed. 
The people responsible for these criminal activities will be identified 
and targeted. Representatives from probation and parole will also 
participate in order to discuss options involving their clients who 
might be in violation of the terms of their release. Resources will be 
synchronized to build further cases. Since the Police Department, the 
DA's Office and the federal agencies are already doing this work 
separately, combining our efforts should require only modest increases 
in resources. The results that are possible with a combined focus, 
combined resources, and a mutual goal will justify any additional 
expense.
    Thank you for the opportunity to discuss this important matter with 
you.

    Senator Sessions. Thank you.
    Mr. Stern.

                  STATEMENT OF DONALD K. STERN

    Mr. Stern. Good afternoon. Thank you, Senator Sessions. 
Thank you for inviting me to testify this afternoon on gun 
prosecutions. I have spent a good deal of the last 5\1/2\ years 
as U.S. attorney in Massachusetts focusing on this issue as 
part of the effort to reduce youth violence. I have also served 
as the Chair of the Attorney General's Advisory Committee of 
U.S. Attorneys.
    I am pleased to report that in Boston Federal prosecutors' 
partnership with State and local law enforcement agencies, as 
well as with others in Boston, have achieved considerable 
success. Indeed, over 200 different jurisdictions have come to 
Boston to learn about what some have referred to as the Boston 
model.
    Senator Sessions. Based on Mobile and Birmingham, AL, both 
have--I have been there, and I have recommended it, and they 
are already implementing many of your programs in those two 
cities. I think you have done some very creative things that 
are being replicated around the country, and I congratulate 
you.
    Mr. Stern. Thank you very much, Senator. We had the 
commissioner come and visit, in fact, about a year ago, and I 
am going to now take credit for most of the good things that 
will happen in Philadelphia.
    But I think it is worth pausing----
    Senator Sessions. Are you going to claim credit for 
Giuliani's New York, too? [Laughter.]
    Mr. Stern. I think it is worth just pausing to set the 
scene for what things were like, not now in Boston but in the 
early 1990's, and then I want to identify what I would call 
three basic reasons for the success in Boston.
    In 1990, homicides were at an all-time high in the city. 
Drive-by shootings were commonplace. Parents were afraid to let 
their children play outside. There was a real question, as 
Police Commissioner Evans has said at times, about the 
viability of the city.
    These problems were symbolized by two events, now etched in 
the memory of every resident in Boston. The first occurred in 
December of 1992 when 14 gang members invaded the Morning Star 
Baptist Church during the funeral of a young murder victim, who 
had been shot in a drive-by killing. A 21-year-old man was 
beaten and stabbed inside the church. Then, in December of 
1993, Louis Brown was murdered. Louis was a 15-year-old honor 
student in West Roxbury High who said he wanted to be the first 
African American President. And he was murdered in a cross-fire 
between two rival gangs when Louis was on his way to an anti-
gang meeting.
    Things have dramatically changed. Between 1995 and 1998, 
homicides dropped by 64 percent. In 1998, last full year, there 
were 35 homicides in Boston, a city of about 650,000, 700,000 
people, as compared with 152 homicides in 1990. This year, thus 
far--and we are almost 3 months into the year--there have been 
four murders in the city of Boston, down another 56 percent 
from this time last year. Indeed, serious crime in general is 
at the lowest level in more than 30 years.
    And then there was the period from July 1995 through 
December 1997, when not a single juvenile was murdered by a 
firearm in the city of Boston. Let me just say that again. Not 
one juvenile for 2\1/2\ years was murdered in the city of 
Boston. And while we knew that statistic could not last 
forever, we also knew that we were on to something successful.
    In 1990, 51 Boston young people, 24 and under, were 
murdered by a firearm. Last year, there were 16 such murders. 
This year, thus far, again, almost 3 months into the year, 
zero.
    I attribute this remarkable success to three things: the 
creation of true partnerships between local, county, State, and 
Federal officials, as well as community leaders, the faith 
community, and business leaders; second, a willingness of all 
these people to really step out of their traditional roles; and 
then, third, a focused and targeted law enforcement strategy. 
Let me just briefly talk about each one.
    There is no question that the law enforcement community in 
Boston has its act together. We are cooperating in ways that 
were really unthinkable years ago. And although we shouldn't 
get medals for this--taxpayers should expect that law 
enforcement agencies cooperate, as I am sure, Senator, you can 
attest to from your years as a prosecutor--turf battles among 
law enforcement agencies can sometimes be fierce, even if 
always counterproductive. That is not the case anymore. I would 
like to think that the partnerships that have been developed, 
Federal, State, and local, really are now a model for the 
country.
    But I have to say that this cooperative effort really would 
have fallen short unless we didn't also have as part of it a 
component of community-based justice. Part of this is what is 
known as community policing, the cops that have been added to 
the Boston police force by the crime bill, but it has really 
refocused policing, as I am sure is happening in Philadelphia, 
from a reaction to 911 calls to now a problem-solving mode.
    In Boston, we have expanded that to not only include the 
police departments and the investigative agencies, but other 
parts of the criminal justice system as well, including 
prosecutors. Prosecutors, even Federal prosecutors, now see 
their role as proactively solving problems and making things 
safer in the community. And as you know, Senator, President 
Clinton has asked for $200 million addition in his year 2000 
budget to fund additional prosecutors to do this.
    Second, I think the second reason for Boston's success is 
that people have been willing to step out of their traditional 
role. Police have gotten out of patrol cars. Ministers have 
come down from the pulpits and are walking the street. 
Probation officers are visiting homes, even late at night. And 
prosecutors are in the schools.
    If some of this cooperation and community-based justice 
sounds a little vague and maybe even a little soft, let me 
clear that up. The third and essential leg of the Boston 
strategy has been aggressive, focused, and targeted 
prosecution. This means determining who are the relatively 
small number of violent criminals in Boston and going after 
them with the combined fire power of local, State, and Federal 
prosecution.
    Sometimes that means State prosecution, but in other 
instances, we have used the heavy penalties and the special 
tools available in the Federal prosecution. We have gone after 
gun traffickers, repeat violent offenders, and violent drug 
organizations.
    Let me give one which I think has become kind of the poster 
child, if you will, or poster case for the effort in Boston.
    An individual who had 15 prior State felonies, who was 
recycled, as has been referred to that can happen, through the 
State system over and over again, was walking down the streets 
of Boston in Roxbury one night, having handed a gun off to a 
juvenile, or so the police thought. And he was flipping a 
single bullet in his hands as he walked down the street, a live 
cartridge, fairly brazenly, basically saying to the police 
officers, You know, I have nothing on me.
    Well, what he didn't realize is that, as a felon, carrying 
a single round of live ammunition is as much a violation of the 
Federal law as is a gun. We prosecuted him as a felon in 
possession of ammunition, and he was sentenced to 20 years in 
Federal prison.
    At the sentencing, the judge made clear his long sentence 
was not being imposed because of that single bullet, but 
because he was a career violent criminal. The result was widely 
publicized by the Boston Police Department through word of 
mouth and hand bills, and as Richmond has demonstrated, the 
informal word of mouth, the ability to get the word out, is 
very important. In fact, what we have done, Senator, in Boston, 
since virtually all of the potential murderers and victims are 
themselves court-involved in the State system--and we know who 
they are--the profiles done of the shooters and the victims 
usually are pretty much the same, 75 percent of them are court-
involved. We bring them in while they are on probation, and we 
have an array of Federal, State, local investigators and 
prosecutors, and we tell them, if you start shooting each 
other, if you start to commit violence, we are going to focus 
on you.
    And we do it face to face. We don't do it through hand 
bills or hand-outs, although sometimes the Boston police have 
done----
    Senator Sessions. Who does that specifically? Is it a 
probation officer or----
    Mr. Stern. Well, we bring them in as part of the probation 
effort, but it is a pretty staggering array of personnel. We 
have an assistant district attorney, an assistant U.S. 
attorney, someone from ATF, someone from probation, someone 
from the Youth Violence Strike Force, someone, interestingly 
enough, from the faith community, the Ten Point Coalition, 
which has been a very powerful force in Boston, who speaks 
directly to some of these young people.
    One of the great comments from the faith community which 
really began--the Ten Point Coalition began as principally an 
African American ministers organization. It has now expanded. 
They will say sometimes to some of these young people: We think 
everyone can be saved, but sometimes it has to be in a prison 
ministry. They send a very powerful message to the violent 
criminals that if you are going to shoot other people, we are 
going to support the police. We are going to support the U.S. 
attorney's office. We are going to support the district 
attorney's office, and we are going to take you off the street.
    This effort has proven very successful, so successful now 
that we are now trying to find jobs for some of the people who 
want another way. The Boston police and the district attorney's 
office and the U.S. attorney's office and other members of law 
enforcement are actually trying to steer some of these former 
gang members--not the gang bangers, the heavy hitters who are 
going away to Federal prison for long periods of time, but some 
of the younger people, we are actually trying to steer them 
into job training in the hopes that in the same way that we can 
identify the violent criminals and prosecute them, maybe we can 
identify some of the kids who want to make a change in their 
lives.
    Senator Sessions. Thank you. It is a very exciting program. 
My staff person, Kristi Lee, has been there and observed it, 
and it is striking to me that you know those young people's 
names and they know you know them, and you are watching them 
personally and expect them not to continue a life of crime. And 
it goes beyond punishment. It strikes me you don't care about 
them at all if you don't monitor them and keep up with them. It 
is only because you care about them and want them not to 
continue a life of crime that you have intensive parole 
supervision and probation supervision and monitoring and 
personal contact with them. I think that is an essential 
component, and it used to be part, I think, of crime 
enforcement when we had smaller communities and less crime. 
There are a lot of good things happening there.
    Let's see. Ms. Fahey, there were reports that you have 
pitched, let us say, this program to the Department of Justice 
for some time, and at least initially were having difficulties 
convincing them of the wisdom of it. Is that true? And have you 
received a different reception lately?
    Ms. Fahey. Well, I wouldn't say that I had pitched it to 
the Department of Justice. What we did--and this goes back 
probably more than 18 months--was go to the Department, 
specifically to Eric Holder, and to ask him to help us with 
resources for Project Exile in Richmond. And he as well as his 
staff people were very responsive and were able to get for us 
additional FBI agents, DEA agents, encourage the ATF to send 
additional agents down there, have the Marshals Service do a 
major fugitive round-up as well as detailing attorneys from the 
Department of Justice to Richmond.
    Senator Sessions. Well, I don't want to belabor the point, 
but I do want this to be a seminal, important moment. And I 
would like to see us as a Nation and the Department of Justice 
and the ATF to refocus and to realize the possibilities of 
lives being saved through intensive prosecution of the laws 
that are basically already on the books.
    Chief Oliver or Ms. Fahey, with regard to the cases that 
are being prosecuted in Exile, could you tell me what are the 
most common penalties or violations you are prosecuting?
    Ms. Fahey. Felon in possession. These are people who have--
--
    Senator Sessions. Prior criminal convictions.
    Ms. Fahey. Prior felony convictions, and they are carrying 
weapons, and they are frequently carrying semi-automatic 
weapons.
    I think we look at it as part of our crime prevention 
program that we take these individuals off the streets because 
they are the ones who are most likely to be engaging in the 
future in further crimes of violence.
    Senator Sessions. Chief.
    Chief Oliver. I would just say, yes, that is correct, and 
these are also the people who are most likely to exponentially 
create problems for us in the sense that they know that they 
have been able to go to jail, get out, use the system, 
intimidate witnesses, intimidate victims, and create an 
atmosphere of intimidation in the community. And so that is 
what--I think that is the important thing. Probably as 
important as any other element is that you are taking these 
people out and you are sending a psychological message, if you 
will, to the community about their absence and heretofore their 
presence and that they are actually gone.
    Senator Sessions. I think that is exactly right, and you do 
prosecute a number of carrying firearms during a commission of 
a felony, I presume, do you not? Would that be the second most 
common violation?
    Ms. Fahey. Let me refer to Mr. Comey and see if he knows. 
Yes, yes.
    Senator Sessions. That would be number two, and that has 
the mandatory 5 years without parole.
    Chief Oliver, what is it about the Federal system--if you 
could share with the country, I guess, right now, why is it 
that we seem to be able to make more progress with a case in 
the Federal system than in State systems? And it is not just 
Richmond. It is all over the country. Would you share with us 
your thoughts on that?
    Chief Oliver. Well, I think that there are a number of 
reasons. First of all, as I indicated in my comments, the 
rebuttable presumption for bail, I think that at least in 
Virginia, up until very recently, violent criminals and 
homicide suspects were able to basically go down and go to a 
magistrate and, basically uncontested, get bail and sometimes 
get out at very low bails. That is an advantage with the----
    Senator Sessions. That is not uncommon throughout this 
country. It is too often the case in my home State of Alabama.
    Chief Oliver. That is correct.
    Senator Sessions. Federal bail is much tougher than State 
bail.
    Chief Oliver. And in some cases, I know that in dealing 
with our U.S. attorney, there is always somebody there to 
contest that giving of bail, and at the local level that is not 
always the case.
    Senator Sessions. In other words, a prosecutor is before 
the judge arguing to keep the defendant in jail rather than 
having only his lawyer there arguing to keep him out.
    Chief Oliver. That is correct. And the other issues I think 
have to do with the speed, the rapidity with which the Federal 
system seems to work, seems to move cases through in an 
expedited manner, and sometimes at the State level, at the 
local level, it takes an awful long time because of dockets and 
so forth to get these cases moving through court--which, again, 
I think underlies and belies the confidence that citizens have 
at a local level in the whole system when things don't move, 
when they see bad guys still out and around and creating even 
additional crimes while they are waiting to go to court on some 
of the crimes that they have already been arrested on.
    We have spent a great deal of money, by the way, on getting 
them there, and we still haven't got them prosecuted.
    Senator Sessions. I suppose it is not good for your police 
officers who actually catch a dangerous criminal, perhaps at 
risk of their life, and see him be released on bail that very 
day, and it may be a year before the case comes to trial.
    Chief Oliver. That is another area that I think it 
certainly has provided a shot in the arm, adrenaline, if you 
will, to the Richmond Police Department officers, the men and 
women out there on the street, to know that when they have 
taken somebody off the street--we gave you the statistics, as 
indicated. These people are off the streets. And when they go 
to jail, they go to jail.
    As I indicated, they go to jail, they go to prison not for 
a short period of time, but a relatively long period of time, 
and then a relatively far distance away from home.
    I think that that is--when I think about it, at least in 
Richmond, our experience with Project Exile, that has been the 
most salient point. That is, the certainty and rapidity of the 
prosecution and the certainty that you will do jail time if you 
are caught with a gun has really sent a message substantively 
and psychologically throughout our community.
    Senator Sessions. Chief, how has the African American 
community responded in Richmond to this plan?
    Chief Oliver. Well, I think community policing is really 
based on aggressive--fair but aggressive law enforcement. And I 
think all citizens in every neighborhood, black, white, or 
whatever, want a safe community. They want the kids to be able 
to play in the park. They want the elderly to be able to walk 
down to the corner drug store or the corner store. They want 
families to enjoy the amenities of their city. And sometimes 
community policing has to be based on aggressive style 
policing.
    Once we create the opportunity for peace and for 
tranquility, that has to be created, the soil, the fertile 
soil, and that comes with law enforcement aggressive 
prosecution. I think that is what has happened in Richmond, 
that there is a confidence, a rebirth of confidence because of 
the police department being the police department and the 
prosecutors actually prosecuting criminals. Confidence has been 
regained, has been renewed, and people are coming out in droves 
really to support us in our effort.
    So the African American community--Richmond is a majority 
minority community, and we have received widespread support in 
our initiatives, especially Project Exile.
    Senator Sessions. Ms. Fahey, under the general--with some 
flexibility, would you say that virtually every community--
would you say every community in America could benefit from a 
coordinated State-local effort to focus on violent crime, in 
particular gun violations?
    Ms. Fahey. Well, I think that would be worthwhile in every 
community. I don't think necessarily, though, they would have 
to be Federal prosecutions of those violations. That would 
depend upon the particular circumstances in that community.
    We developed this program to deal with a particular problem 
in the city of Richmond, and I think it has worked very well 
there. But I think that you can tell from listening to Mr. 
Stern, different communities have different problems. One major 
difference that I hear listening to Mr. Stern is that the 
average age of both our murder victims and our perpetrators in 
Richmond is almost 30 years of age. We did not have a major--
not that we didn't have any, but we did not have a major 
juvenile crime problem. And I think also different States and 
different communities have different levels of local police 
resources, local prosecution resources, and local court 
resources.
    I was a prosecutor in Arlington, VA, for approximately 17 
years before I became the U.S. attorney. We are not doing a 
Project Exile in Northern Virginia. We are doing gun cases on a 
case-by-case basis as necessary. We are not doing Project Exile 
in Northern Virginia because we have sufficient police 
resources, prosecution resources, and court resources to deal 
with the problems; whereas, I think when we started in 
Richmond, the local police, prosecutors, courts, were 
absolutely overwhelmed by the number of very, very serious 
cases.
    I think that when you look around the country you see those 
kinds of differences and you see that different things apply in 
different areas. So I think gun cases should be prosecuted 
everywhere; they should be prosecuted all the time. That word 
should go out all over the country. But they can be prosecuted 
both in the State courts and in the Federal courts, depending 
upon the circumstances.
    Senator Sessions. Mr. Stern, do you have any comment on 
that discussion?
    Mr. Stern. I would just add one concrete example of what 
Helen Fahey is saying. Massachusetts penalizes by mandatory 
sentence, a year in prison for anybody caught carrying a gun. 
That has been the law for probably 15 years, and it is 
enforced. So what that means is that we have been able to 
harness our resources and really focus on the repeat offenders.
    If someone is caught with a gun by a Boston police officer, 
for example, they are going to go away for a year, and the 
legislature a couple of years ago actually expanded that to 
include juveniles. So now it encompasses juveniles as well.
    So we don't have to do every case federally in Boston or 
any community in Massachusetts. What we do instead is we have a 
constant dialogue between my office and the district attorney's 
office to make decisions on a case-by-case basis, which cases 
are appropriate for Federal prosecution for all the reasons 
that you identified, the tension issues, speed-of-trial issues, 
sometimes symbolic issues because the police know and we know 
that a particular criminal is notorious within a neighborhood. 
And we have had many situations where someone shows up in 
Federal court--you probably had this, Senator, when you were 
U.S. attorney. They show up thinking they are going home that 
day. They don't go home. They don't go home.
    Senator Sessions. Because the prosecutor is there who 
argues and presents their record, and the judge has a hearing 
and denies them bail.
    Mr. Stern. Denies them bail and they think it is just like, 
you know, the Boston municipal court, and it is not. But, you 
know, we don't need to do that for every single offender.
    Then the other thing I would say, just building on what 
Helen said, we have been successful in part because it has been 
a balanced approach. It has not been just aggressive, heavy law 
enforcement. It has included prevention efforts to try to reach 
out to some of those younger kids who really do want to make a 
change and really want alternatives. So we have worked with the 
Boys and Girls Clubs. We work with some of the youth 
organizations. We have worked with the faith community.
    I think if you accompany that with the other message, which 
is if you don't take advantage of those programs you may wind 
up in Federal prison, I think you send a very powerful two-
punch.
    Senator Sessions. Well, this committee has been very 
supportive of Boys and Girls Clubs, and Congress is 
exponentially increasing their funding. I guess I would just 
say that there is a fundamental principle that, I think, years 
ago when I started in this business, people weren't very much a 
believer in, and that is that police and prosecutors actually 
can affect the crime rate. There was a belief not too many 
years ago nothing would do it. I call it the ``Hill Street 
Blues'' syndrome. You know, they just arrest them and take them 
in. Everybody has got their head hanging down, just life, you 
know, in the big city. Arrest them, they get out, and they go 
on. But when we really work together and as a coordinated 
community effort, time and again you see progress in reduction 
of crime.
    Now, in Philadelphia, I understand what you do is you 
evaluate case by case, or you are planning to do it that way, 
and that certain cases will be referred upward or over to 
Federal court and certain cases will stay in State court. And 
let me ask you, sometimes can you use the suggestion of Federal 
prosecution as a basis to get a criminal to confess and tell 
you more things about who else was involved in the crime?
    Mr. Timoney. Absolutely, and we have to do more of that. 
That is absolutely correct, Senator, as leverage.
    One of the other problems with Philadelphia is we are 
responsible for prisons up to 23 months; 24 months, they go 
upstate. And so often they will plead guilty to 22 months to 
stay local even though they should be getting 5 years. We tell 
them you better take 3 years or else you are going to go 
federally for 5 years. So it is a bargaining chip.
    Senator Sessions. You can get a better State sentence.
    Mr. Timoney. Yes.
    Senator Sessions. Well, I think that is interesting, and I 
wonder, do you have the same problem with speedy trials and 
lack of certainty of punishment in Philadelphia when you arrest 
people for serious offenses?
    Mr. Timoney. I think most large urban areas seem to have 
that, yes. Again, I think Senator Specter hit on it, that if 
you have the ability to go shopping for a judge, you know, you 
will come up with all sorts of reasons to postpone hearings, 
preliminary hearings and wait hearings and a whole host of 
things until you come up with the right judge. And so there is 
kind of an accretion effect of all the different delays that in 
a sense delays justice also.
    Senator Sessions. We had some hearings here involving a 
situation in Philadelphia, and I saw some sentences on 
convictions for very serious crimes and repeat offenders that 
shocked me, how light they were. It was unfortunate.
    With regard to the casings and identification, the Federal 
Government--we talked about two agencies that have systems that 
if you find a bullet and a casing, you can actually put them 
together and solve old crimes and things of that nature.
    Mr. Timoney. Right.
    Senator Sessions. Do you have an opinion as to how that is 
working, how we can make it better? And you might as well say 
which program you like best.
    Mr. Timoney. Well, we happen to have the ATF program. We 
think it is great. It has really been terrific for us.
    But, more importantly, on which is the best system, it 
actually points out, you know, what is the appropriate role for 
the Federal Government. How about establishing national 
standards for ballistics evidence, for fingerprint evidence, 
for DNA evidence? We are all over the lot.
    I just testified 3 weeks ago before Congressman Burton's 
committee on this very issue, establishing national standards. 
You know, they have it in the telephone company. You can call 
China. There is no problem. You will get the same system, even 
though there are different carriers. The Internet system, they 
are all interchangeable. It is only when you get to the 
criminal justice system that they all have their own stand-
alone independent systems.
    Senator Sessions. I think that is a good idea and a good 
suggestion. But it is an appropriate role for the Federal 
Government to do the research and to provide the technology to 
the States to scientifically analyze these projectiles and 
casings to identify the criminal behind it. I think that is a 
perfect role.
    What about this? Let me ask Chief Oliver. In my home State, 
we have had, despite some heroic efforts, difficulties in being 
current with drug analysis, chemical analysis reports for use 
in trial. Is that a problem in Virginia, or can you get rapid 
turn-around if you submit a drug and have an expert report 
back?
    Chief Oliver. Well, at a local level, it is a problem in 
terms of submissions to our State labs and even to the medical 
examiner's office at times in getting what we consider to be 
from our perspective as police officers a timely response. In 
many cases, to be honest about it, because it takes a long 
length of time, it really holds up the ability to dial in on 
certain suspects in many cases.
    Would you say that is correct? So, yes, the answer to your 
question is yes, we do have problems at a local level, and the 
quick return of analysis of drugs and other kinds of evidence 
in many of the local-level crimes.
    Senator Sessions. Even if the person is inclined to plead 
guilty, his lawyer is not going to plead guilty until that 
report comes back, normally.
    Chief Oliver. Of course.
    Senator Sessions. So delays can delay the whole system.
    Chief Oliver. If there is a backlog, there are many delays, 
yes.
    Senator Sessions. And I just think that maybe that is also 
a role that the Federal Government could--Senator DeWine and I 
and others have worked on some programs to increase funding for 
State laboratories, which I think is a good step.
    Mr. Timoney. Up in New York we had the problem of getting 
timely analysis of drugs. In Philadelphia, though, this is one 
of the things they actually do very well. The judges will 
stipulate to a field test by the police officer. The field test 
will indicate the presence or non-presence of cocaine. So for 
preliminary hearings--which is very good because then you only 
wind up having to test those that go to trial.
    Senator Sessions. That can be very positive.
    All right. I know some of you have planes to catch. Any 
comments that you would like to contribute before we conclude? 
[No response.]
    Senator Sessions. Well, thank you very much. I have the 
basic view that I have spent too long in this business to get 
too much on the frills and symbolism. I would like to see us 
develop programs that will actually reduce crime, and what is 
exciting to me about the hearing today is we have three 
different cities who have plans under way that I believe will, 
in fact, reduce crime, save people from being killed, make 
communities safer, actually help revitalize a city, in fact, 
change the whole self-image of a city.
    I think all of us in law enforcement need to believe again 
that there is hope, that we can make a difference, and if we 
work together, we can continue to make this a safer country.
    Thank you very much for your excellent testimony.
    I will offer for the record the statement of Henry Neal, a 
retired ATF agent, without objection.

    [The prepared statement of Mr. Neal follows:]

    Prepared Statement of Henry L. Neal, Retired Special Agent, ATF

    I was a special agent with the Bureau of Alcohol, Tobacco and 
Firearms from August 1971 until March 1997. My work for that 26 year 
period encompassed nearly every segment of law enforcement and support 
operations conducted by ATF. My career began at the close of the liquor 
law enforcement era in Milledgeville, Georgia. I was, at various 
stages, a street agent, a support agent, a manager and a supervisor.
    Various approaches were tried by the ATF administration to enforce 
elements of the often unpopular ``Gun Control Act''. Those attempts met 
with checkered success; in some measure due to the politics of the 
moment. It was my observation there were many dedicated men and women 
in ATF doing their very best to conduct meaningful investigations into 
violations of those gun laws, but the often changing directions from 
headquarters did little to develop a continuum of enforcement effort. 
There was a continuing problem with overall effectiveness; very limited 
resources were expended without tangible results.
    The development and implementation of Project Triggerlock provided 
a focal point for those valuable resources provided by ATF in the 
effort to curtail violent crime in the street. It provided the impetus 
for the vital cooperative law enforcement effort at the state and local 
and federal levels. Local police saw real evidence there was federal 
cooperation which resulted in meaningful help to them. Just as 
importantly, federal intervention at the street level was and is a 
highly efficient method of developing and expanding an investigation 
into a multi-level, multi-defendant, complex criminal case. It was my 
experience that beginning an investigation at the lower level of a 
criminal operation and working up was much easier than trying to begin 
at the top and working down. Several examples of that type are provided 
at the end of this statement.
    The Triggerlock type operation provided a well defined road map for 
agents to follow in developing criminal investigations. Available 
resources, support and personnel, were assigned to a known objective. 
Criminal prosecutions increased with the support of the Justice 
Department. Consequently violent crime was curtailed to the extent 
federal resources can do that. It was a concerted effort. There were 
tangible results. Prosecutions of armed criminals expanded dramatically 
under the Triggerlock umbrella.
    The well noted memorandum from Attorney General Richard Thornburgh, 
which essentially prohibited U.S. attorneys dealing firearms cases, 
added impetus to the team effort.
    In the 1992 to 1993 time frame prosecutions began to diminish 
nationwide, based on internal ATF documents circulated during that 
period. That was due to a number of factors, many beyond the agency's 
direct control, but the message from headquarters clearly changed to 
concentrate on the ``big'' case of federal interest. Street level 
agents, who had a good grasp of crime issues, began to lose direction 
again. Many questioned just what those major cases were, and how did 
they initiate them without a point of entry. State and local officers 
were told succinctly that ATF could no longer support them in most 
street level firearms violations. These were the same officers and 
agencies who had come to view ATF as a friend on the street under 
Triggerlock.
    I observed the current director of ATF, beginning in 1993, in 
personal appearances and on video tape state unequivocally the agency 
had been headed in the wrong direction. Street level enforcement would 
be de-emphasized and resources would be directed at the cases of 
federal interest. The message was clear--do not work street level 
firearms violations. They are the responsibility of local police. That 
directive was published internally in written documents from the 
director and his subordinates. The effect was dramatic. Criminal 
prosecutions began to fall at a precipitous rate.
    One of the strangest events I witnessed was the revocation of the 
``Thornburgh memo'' by the new Attorney General in 1993. That was done 
by an administration which touted gun control as one of its hallmarks. 
The effect was immediate. Local assistant U.S. attorneys refused to 
prosecute or otherwise subordinated firearms charges. The atmosphere in 
my meeting with those assistants on prosecution matters changed 
palpably.
    The continuing decline in the prosecutions of firearms violations 
had not changed at the time of my retirement in March 1997. As recently 
as three weeks ago a local police officer in Alabama called me to ask 
how he could get federal help with firearms violations. I explained the 
process as I knew it to him. He was not encouraged.
    The brief summaries which follow are of federal criminal 
investigations initiated in the Southern Judicial District of Alabama 
in calendar years 1995 and 1996. They represent, in my opinion, a 
responsible utilization of federal resources at the street level.
    Case No. 1: Five burglaries of gun dealers in two states conducted 
by a gang of eight violent offenders. At least four of them were 
juveniles; one adult was a multi-convicted violent felon. The firearms 
were distributed in a multi-state area including Michigan. I only 
became aware of the crimes because I had requested local law 
enforcement notify me if they found firearms in the hands of criminals. 
The case could not be completed before I retired. ATF never followed up 
on the case even though the U.S. attorney's office, Mobile was familiar 
with the investigation and had approved prosecution.
    Case No. 2: An exchange of gunfire in Atmore, Alabama resulted in 
no injuries, but it was determined one of the individuals involved was 
using a sawed off shotgun and was one of the eight involved in case no. 
1 above. He was in the street vernacular a ``gang banger''. He was a 
very dangerous young man. I stopped him on the street and arrested him 
for the .12 gauge sawed off shotgun in his waistband. The shotgun had 
been stolen had been stolen in a burglary in case no. 1. He was sixteen 
years old at the time of his arrest. He is now in the federal prison 
system.
    Case No. 3: Five young men, including 3 juveniles, car jacked a man 
in north Florida. The main trigger man shot the victim's arm off with a 
twelve gauge shotgun. The trigger man was one of the eight burglars in 
case no. 1. We arrested the five and convicted all in federal court in 
Mobile, Alabama. I learned of the shooting from local law enforcement 
because I advised them to contact me in the event of local street level 
offenses involving firearms.
    Case No. 4: A local officer approached me to describe an arrest of 
one man in a car with several firearms and a user quantity of 
methamphetamine on his person. He was not a convicted felon. I entered 
the pertinent information in the Treasury Enforcement Communications 
System and followed up on the investigation. The investigation resulted 
in the prosecution of 15 people at the state and federal level in what 
was and is the largest methamphetamine distribution operation ever 
identified in northwest Florida and southwest Alabama. The principal 
pled guilty to the distribution of more than ten kilograms of 
methamphetamine. A number of firearms, including some stolen, were 
recovered. A substantial number of military explosive devices, which 
had been stolen from a U.S. Army base in Georgia and never reported, 
were recovered.

    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                  Additional Submission for the Record

                              ----------                              


         PROSECUTOR'S STRATEGY SCRAMBLES GUN-CONTROL ALLIANCES

     By David S. Cloud, Staff Reporter of The Wall Street Journal, 
                            August 31, 1998

                           cue cards for cops
Important:
          Always ask if the suspect uses drugs, i.e., cocaine, heroin, 
        marijuana.
          Most suspects will deny dealing but readily admit using and 
        that's all we need to make a federal gun case.
Federal Gun Possession Crimes:
          Carrying during drug possession
          Convicted felon (state or federal)
          Fugitive who has fled another state
          Under indictment for a felony
          Subject to a restraining order
          Drug user or addict
          Mental defective
          Illegal alien
          Dishonorably discharged
          Prior misd. domestic violence
          Obliterated serial number
          Sawed-off weapon
          Stolen gun (if defendant knows)

    RICHMOND, Va.--David Schiller says he can make a federal case out 
of just about anything involving guns. He's right.
    For the past two years, Mr. Schiller has used his powers as an 
assistant U.S. attorney to transfer mundane arrests by local police 
here to the federal court system. His zealous pursuit of almost anyone 
caught violating even the most obscure federal gun law has sent 200 
people to prison, which Mr. Schiller's supporters say helps explain a 
dramatic drop in the city's homicide rate.
    Now this seemingly simple idea--federalizing firearms cases--is 
scrambling alliances in the national gun-control debate. Mr. Schiller's 
campaign, dubbed Project Exile, is backed by both the National Rifle 
Association and some ardent gun-control advocates, including a few big-
city mayors. Congress wants to implement Project Exile in other cities, 
but the Clinton administration is loath to divert money and attention 
from its own antigun initiatives to one backed by its nemesis, the NRA.
    The battle over Project Exile heats up when Congress returns from 
its summer recess to finish work on next year's budget. Supporters will 
lobby hard for more money, and some Republicans see a chance to 
embarrass the president if the administration opposes a get-tough 
solution on one Mr. Clinton's pet issues.
    A career prosecutor, the 43-year-old Mr. Schiller didn't mean to 
get in the middle of a political storm, but his relentless evangelizing 
has made him a minicelebrity here and a thorn in the side of Justice 
Department officials in Washington.
`Lone Ranger'
    ``Some people think Schiller's nuts,'' says Richmond defense 
attorney David Boone. ``Is he overzealous? Absolutely, but he's like 
the Lone Ranger: He's on a mission.''
    For years, Congress has been expanding the reach of federal gun 
laws, making it relatively easy to bring these cases. But few 
prosecutors tool the bait until Mr. Schiller started using the little-
noticed laws to prosecute not only well-armed drug dealers, but middle-
aged wife-beaters who happen to keep a gun in the closet. The mandatory 
federal sentences are stiffer than those generally given in state 
courts.
    Has it made a difference? Throughout the 1990's, Richmond was one 
of the country's most violent cites, but now things are improving. 
There have been 39 gun-related homicides in Richmond so far this year, 
49 fewer than last year at this time. Violent crime has been falling 
nationwide, but Mr. Schiller claims to be altering criminal behavior on 
the street. ``What we're finding is that a lot of dopers are now being 
arrested without any guns on them,'' he says.
    Mr. Schiller and his boss, U.S. attorney Helen Fahey, have gone to 
Washington repeatedly to plead with senior Justice Department officials 
for more prosecutors and agents, but with little success. ``We could do 
more cases if we had more help,'' says Ms. Fahey, a Clinton appointee.
    Kent Markus, Attorney General Janet Reno's top aide on gun violence 
until leaving last month to teach law, dismisses Project Exile as 
``assembly line'' prosecutions that bleed resources from other law-
enforcement priorities, such as organized crime and high-level drug 
trafficking. ``I don't think there's any empirical evidence'' that 
Richmond's falling murder rate is related to Project Exile, says Mr. 
Markus.
Mixed views in Richmond
    Richmond officials applaud Mr. Schiller's efforts, but worry about 
the long-term social consequences of such draconian measures. ``There 
got to be solutions other than Exile,'' said Police Chief Jerry Oliver, 
a supporter of the program. ``As an African-American male I'm dismayed 
at what we have to do to maintain safety.''
    The NRA embraced Project Exile as the embodiment of its antigun-
control doctrine: Get tough on crime, not guns. ``It says with deadly 
accuracy that guns are for the law-abiding,'' asserts NRA Executive 
Director Wayne LaPierre, who is lobbying lawmakers to expand the 
program to dozens of cities. ``That hasn't been said anywhere else in 
the country, and it is changing criminal behavior in Richmond.''
    Mr. Schiller disagrees with the NRA on gun control and worries that 
its backing for his program could overshadow its accomplishment. But 
the group's support was key to getting the program off the ground. At 
first, Richmond's conservative business community was lukewarm about 
it. Mr. Schiller says, because of early NRA hostility. When he asked 
for an endorsement, he says the NRA denounced him as an antigun zealot 
from the ``Clinton-Reno empire.''
    A subsequent appeal through a friend of a friend of Mr. Schiller's 
brought a closer look from Mr. LaPierre. Since then, the NRA has spent 
more than $25,000 promoting the program, including a sizable gift to a 
nonprofit foundation that publicizes Project Exile's harsh consequences 
on radio, television and billboards. For balance, Mr. Schiller also 
sought out Handgun Control Inc., whose chairman, Sarah Brady, called 
Project Exile's results ``impressive,'' though not a panacea.
Odd partnerships
    Other odd alliances are forming as well. In June, NRA resident 
Charlton Heston joined forces with Philadelphia Mayor Ed Rendell, a 
pro-gun-control Democrat, to seek Project Exile funding for his city. 
But the Philadelphia U.S. attorney's office worries that trying Project 
Exile in a city with seven times more people than Richmond is 
impractical and might swamp the courts.
    Nevertheless, last month the Senate approved an amendment by 
Pennsylvania Republican Arlen Specter requiring the Justice Department 
to spend $1.5 million on five prosecutors to prosecute gun cases in 
Philadelphia, which averages over 400 murders a year. New Jersey Sen. 
Frank Lautenberg, a pro-gun-control Democrat, secured $800,000 for a 
similar effort in nearby Camden.
    The NRA bought a full-page ad in USA Today earlier this month, 
prodding President Clinton to support the Philadelphia appropriation: 
``Instead of giving us another press conference about more gun-control 
laws,'' it said, ``give us one city. Let us try crime fighting one 
way--the Project Exile way.''
    The ad annoyed Mr. Rendell, whose White House lobbying efforts 
received a polite but noncommittal response. Still, he says, ``If it 
stops only six murders a year, I've got to be for it. * * * The White 
House may distrust the NRA, but I've got to overlook that.''
    In Richmond, Mr. Schiller works on a shoestring. He has merchants 
pass out black cards warning, ``An illegal gun gets you 5 years in 
federal prison.'' He hands out laminated cards to the police explaining 
the basics of federal gun statutes. For example, it's a federal crime 
to carry a weapon while possessing illegal drugs. ``Most suspects will 
deny dealing but readily admit using,'' the card reads. ``That's all we 
need to make a federal gun case.''
    Just ask Shuler Cox, 19 years old. He was arrested with a small 
amount of crack cocaine and marijuana--and a .45-caliber semiautomatic 
in his car. A federal jury convicted him of drug and gun charges. Now, 
despite an otherwise clean record, he's facing seven years in a federal 
penitentiary. ``When I turned 17, I got into the drug scene, and I just 
thought that having a weapon by my side wouldn't let nobody get to 
me,'' explains Mr. Cox, who nevertheless claims the gun wasn't his and 
is appealing.
    On the other hand, some dangerous offenders are now off the 
streets. Melvin ``Bug'' Smith, a 22-year-old member of a gang called 
the ``Bottom Group,'' was pulled over on a routine traffic stop and 
ended up getting 16 years for drug and firearm convictions. Once he was 
behind bars, witnesses came forward and implicated him in five murders. 
He was indicted on those charges by state prosecutors earlier this 
month.

                                <greek-d>

  
</pre></body></html>
